<html>
<title> - THE TALIBAN: ENGAGEMENT OR CONFRONTATION?</title>
<body><pre>[Senate Hearing 106-868]
[From the U.S. Government Printing Office]





                                                        S. Hrg. 106-868

                THE TALIBAN: ENGAGEMENT OR CONFRONTATION?

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 20, 2000

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



                    U.S. GOVERNMENT PRINTING OFFICE
68-769 CC                   WASHINGTON: 2001





                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
CHUCK HAGEL, Nebraska                PAUL S. SARBANES, Maryland
GORDON H. SMITH, Oregon              CHRISTOPHER J. DODD, Connecticut
ROD GRAMS, Minnesota                 JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                RUSSELL D. FEINGOLD, Wisconsin
CRAIG THOMAS, Wyoming                PAUL D. WELLSTONE, Minnesota
JOHN ASHCROFT, Missouri              BARBARA BOXER, California
BILL FRIST, Tennessee                ROBERT G. TORRICELLI, New Jersey
LINCOLN D. CHAFEE, Rhode Island
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Inderfurth, Hon. Karl F., Assistant Secretary of State for South 
  Asian Affairs, Department of State, Washington, DC.............     3
    Prepared statement...........................................     8
    Response to additional question from Senator Boxer...........    18
Islamic State of Afghanistan (ISA) in Washington, DC, statement 
  submitted for the record.......................................    42
Karzai, Hamid, Afghan tribal leader, Glenwood, MD................    29
    Prepared statement...........................................    33
Shorish-Shamley, Dr. Zieba, executive director, Women's Alliance 
  for Peace and Human Rights in Afghanistan, Washington, DC......    37
    Prepared statement...........................................    39
Tomsen, Hon. Peter, professor of International Studies and 
  Programs, University of Nebraska, Omaha, NE....................    20
    Prepared statement...........................................    25

                                 (iii)

  

 
               THE TALIBAN: ENGAGEMENT OR CONFRONTATION?

                              ----------                              


                        THURSDAY, JULY 20, 2000

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m. in room 
SD-419, Dirksen Senate Office Building, Hon. Sam Brownback 
presiding.
    Present: Senators Brownback and Boxer.
    Senator Brownback. The hearing will come to order. Thank 
you all for joining us today. Thank you, very much, Senator 
Boxer, for being with us as well. Secretary Inderfurth, thank 
you as well for returning to testify before the committee. We 
are glad to have you here for yet another review on 
Afghanistan.
    I wish I could say I thought that there had been some 
movement in U.S. policy. In fact, though it does not appear as 
if there has been much. I continue to see mostly just the same, 
perhaps a worse situation even taking place in Afghanistan.
    The Taliban are still abusing women. An American woman had 
been in Afghanistan for decades was just deported for being a 
spy. They still in Afghanistan host Osama bin Laden. 
Afghanistan is still permitting the operation of terrorist 
training camps. They are still exporting heroin. They are still 
promoting Islamic fundamentalism into Pakistan. Afghanistan is 
not just a state of concern. It is a rogue plain and simple.
    Clearly, whatever policy this administration has toward 
Afghanistan, it is not working. The question is what will work. 
After Secretary Inderfurth speaks, we will have several private 
witnesses, one of whom is in close contact with the opposition 
in Afghanistan. I wonder whether we should not be doing more to 
help them and step up our efforts against the Taliban. I am 
also interested in hearing viable ideas about how to deal with 
the threat to the United States and our allies from all over 
the world.
    It is a short opening statement because mostly I have 
questions this time around Secretary Inderfurth and for our 
private witnesses as well. It does not appear as if the 
situation is changing for the better in Afghanistan, for the 
people there. It does not appear as if it is improving for us 
on the terrorism scale. And I want to hear your thoughts of 
what else we can or should do or what is being contemplated to 
be done by the administration and also considering that from 
the other witnesses that we have.
    The center of terrorism from around the world that we are 
very concerned about has shifted into Afghanistan and the 
regions there around it. So it has become more and more of an 
interest in U.S. policy. I would hope at least we would 
increase our focus, provide special attention to it within the 
State Department and by our administration, an intensive focus 
of what we need to be doing in Afghanistan to deal with this 
terrorism threat and also what it is doing to its own people.
    With that, we will have a vote in a little while. But I 
want to proceed as long as we can. And I would go to Senator 
Boxer for her opening statement at this time. Senator Boxer, 
thank you for joining us.
    Senator Boxer. Thank you, Mr. Chairman, so much for holding 
this important hearing on the Taliban regime in Afghanistan. I 
want to say to you, Mr. Chairman, a real thank you because of 
your leadership on this issue which could really get lost.
    Last year, we joined together in support of Senate 
Resolution 68 which expressed the sense of the Senate that the 
United States not recognize any Taliban led government until 
the rights of women are respected. We passed this resolution 
last year and I again want to thank you for your amazing help 
on that resolution.
    The Taliban is a militia group that controls between 85 to 
90 percent of Afghanistan. People living under the rule are 
subjected to an extreme interpretation of Islam practiced 
nowhere else in the world. It is especially repressive on women 
living in Afghanistan. Under Taliban rule, women and girls in 
Afghanistan are denied even the most basic human rights. They 
cannot work outside the home or attend school or even wear 
shoes that make noise when they walk. Women who are in their 
homes are not allowed to be seen from the street. And houses 
with female occupants must have their windows painted over. 
Parents cannot take their little girls to be treated by male 
doctors.
    Women under Taliban control are forced to wear a garment 
called the Burka. And I have cleared with you having one of my 
staffers who has agreed to show what women have to wear in 
Afghanistan. I think it is important to show that she cannot 
even see outside this. She can hardly breathe outside this. 
There is only a tiny opening to see and breathe through. And 
when we got one of these Burkas from the Feminist Majority who 
made it available to us, I had the women in my office--and I 
myself put this on and it was so claustrophobic that they could 
barely do it. And I want to thank my staffer for doing this.
    I want to say that if women choose to wear this Burka for 
religious reasons, that should be their right. But the 
requirement that women wear a Burka is a clear violation of 
human rights. And the rules surrounding the requirement are 
frightening. Women found in public who are not wearing a Burka 
are beaten by Taliban militia men. If they wear a Burka and 
their ankles are showing, they are beaten as well.
    Poor women who cannot afford a Burka are forced to stay at 
home preventing them from receiving medical care. I believe 
human rights abuses such as these, and I know we are in full 
agreement, are horrific and have no place in today's world. The 
title of today's hearing is ``The Taliban: Engagement or 
Confrontation?''
    And I have to say that I--and I believe you, Mr. Chairman--
we are not convinced that a policy of normalized engagement 
should be in place while these gross violations of human rights 
exist. I thank you, Mr. Chairman, again. I really think we make 
a good team on this. Clearly, when we get together on 
something, it is a pretty broad range of colleagues, I think, 
will follow our leads. So I want to thank you so much again for 
your leadership.
    Senator Brownback. Thank you for yours on this. It has 
brought the resolution to the forefront that got it passed in 
the Senate. And that you are showing this example of 
suffocation of women taking place in Afghanistan by the 
Taliban. And, no. We should not be engaged in normalized 
relations with a country that is not just a country of concern. 
It is a rogue nation with a rogue set of policies. And I want 
to investigation here today what we can do to press this regime 
to get some sort of normalized flow on a broad set of issues.
    Secretary Inderfurth, thank you again for being here and we 
look forward to your statement. And we will have some questions 
for you afterwards.

   STATEMENT OF THE HONORABLE KARL F. INDERFURTH, ASSISTANT 
   SECRETARY OF STATE FOR SOUTH ASIAN AFFAIRS, DEPARTMENT OF 
                     STATE, WASHINGTON, DC

    Mr. Inderfurth. Thank you, Mr. Chairman, Senator Boxer. I 
greatly appreciate this opportunity to speak with you about the 
topics you have chosen for today's hearing on Afghanistan, 
namely the Taliban engagement or confrontation.
    It is, as I think my testimony will make very clear, an 
important, timely and difficult subject. I also look forward to 
hearing your views on the direction of U.S. policy. I too am 
disappointed that we have not been able to make more progress 
in dealing with the Taliban. And I hope that we can work on 
this together.
    Mr. Chairman, Senator Boxer, the situation in Afghanistan 
continues to cause grave concern to the international community 
and great suffering to that country's own population. Recently, 
Afghanistan was described in Newsweek as a country in collapse. 
I cannot dispute that characterization. Some of this is the 
legacy of Afghanistan's two decades of war, first against the 
Soviet occupation, then against each other. And yet, a bitter 
irony is that today many of the country's problems are actually 
aggravated by its own would be rulers, the Taliban.
    One recent telling example is the case of Mary MacMakin, 
who you referred to earlier, Mr. Chairman, a U.S. citizen who 
has long lived in Afghanistan and has devoted nearly four 
decades of humanitarian service to its people only to be 
detained by the Taliban and then expelled from the country this 
very month. We hope that Ms. MacMakin will be able to return to 
Afghanistan, if she so wishes, to continue her vital and 
important work.
    Unfortunately, however, the Taliban's overall record does 
not inspire much confidence in this or any other regard. When 
they swept to power from Kandahar to Kabul in late 1996, they 
seemed to have considerable popular acceptance based on an 
understandable disgust with protracted civil war and a simple 
desire for personal security.
    Since then, while the Taliban have extended their control 
to cover approximately 85 percent of Afghanistan, their 
popularity and legitimacy now appear to be in decline. They 
have failed to end the civil war. And they have failed to offer 
the Afghan people a better life. Instead, the Taliban continue 
to seek a military victory over their opponents in northern 
Afghanistan, but that objective continues to elude their grasp.
    The Taliban's two offensives north of Kabul earlier this 
month led to the heaviest fighting of the year and ended 
quickly with heavy Taliban casualties and no change in the 
front lines. We believe the Taliban now have little prospect of 
completing their goal of gaining control over the 15 percent of 
the country held by the opposition. In short, Mr. Chairman, we 
believe the Taliban have reached their high water mark.
    Let me cite a few of the latest indicators of erosion and 
Taliban authority and effectiveness, all occurring during the 
past several months.
    In March, Ismail Khan, the anti-Taliban former Governor of 
Herat, escaped from a Kandahar prison where he had been held 
since 1997.
    In April, the Taliban appointed Governor of Kunduz province 
was assassinated. More recently, we have reports of sabotage at 
Kabul Airport. We also hear of Taliban difficulty conscripting 
new recruits for this year's spring and summer offensives due 
to serious local resistance and low morale. There are equipment 
shortages for the Taliban war machine and we believe serious 
splits within the Taliban movement itself.
    It is increasingly clear that many Afghans are giving up 
whatever hope they had for Taliban rule. Many would surely 
prefer a more inclusive, more effective, more tolerant and 
perhaps above all more peacefully inclined government if that 
option were to become available.
    Now, Mr. Chairman, what has been the U.S. response? I must 
emphasize that, contrary to some false and damaging 
allegations, the United States does not now support and has 
never supported the Taliban. When they took over the capital of 
Kabul in 1996, we told them we would look at what they did, and 
react accordingly.
    Well, what they have done, in a word, is horrendous. They 
have chosen to prolong their country's agonizing civil war, 
while oppressing its numerous ethnic and religious minorities. 
They have trampled on the human rights of all Afghans, 
especially women and girls. They have condoned and indeed 
profited from the deadly trade in narcotics. And they have 
condoned that other scourge of civilized society, namely 
terrorism, by providing among other things safe haven for Osama 
bin Laden and his network.
    This is the murderer directly responsible for the loss of a 
dozen American and hundreds of other innocent lives in the 
embassy bombings 2 years ago. We believe Osama bin Laden 
continues to this day to plan further acts of international 
terrorism.
    We have consistently and categorically opposed all of these 
Taliban policies. This is precisely the message that we have 
delivered directly to the Taliban in the course of our contacts 
with them. I personally have met with Taliban officials in 
Kabul, Islamabad, New York and Washington. I regret to report 
that they seem determined to ignore our message. If anything 
the Taliban have moved even further in the wrong direction. On 
terrorism, not only have they refused to hand over Osama bin 
Laden as called for by the U.N. Security Council, but they have 
aided and abetted other terrorists worldwide, including violent 
groups in Chechnya and Central Asia.
    I want to make one thing very clear. The Taliban, and some 
of their supporters, continue to misrepresent our campaign 
against terrorism as an attack against Islam. Nothing could be 
further from the truth. We do not oppose Islam. We respect and 
honor Islam. We do not oppose those who practice their faith in 
peace. We do not oppose those who have legitimate political 
concerns they want redressed. But we do oppose those who commit 
or condone criminal acts, especially those who commit murder 
and inflict grievous injury against civilians in the name of 
any ideology, religion or cause.
    On human rights, though we have publicly recognized 
occasional local improvements, the central authorities in Kabul 
have regressed: witness the fate of Mary MacMakin that I 
referred to earlier, or the new edict forbidding females from 
working even in international humanitarian activities.
    On narcotics, the Taliban have allowed Afghanistan to 
acquire, almost overnight, the distinction of the world's 
largest producer of illicit opium, thereby contributing to the 
destruction of countless additional lives every year.
    To borrow an expression from you, Mr. Chairman, Afghanistan 
has become a gateway country--a gateway for some of the worst 
evils of drugs and violence, which daily pass through it 
enroute to other parts of the globe.
    Finally, on the prospects for Afghan peace and 
reconciliation, the Taliban have not wavered from their 
commitment to a military solution. They talk of peace, even as 
they launch new military actions. They agree to exchange 
prisoners with the Northern Alliance under Islamic auspices, 
and then renege. Independent political figures and political 
opponents of the Taliban are shot down, including just a year 
ago the esteemed tribal leader, Mr. Ahmed Karzai, whose son 
Hamad is here with us today to carry on his part of the 
traditional leadership and consensus-building role so sorely 
needed in Afghanistan today.
    Mr. Chairman, my strong criticism of the Taliban should not 
be read to imply U.S. recognition for the opposition Northern 
Alliance led by Ahmed Shah Masood. The Alliance does 
incorporate representatives of many of Afghanistan's minority 
ethnic populations, and appears to come closer to meeting 
international standards of human rights.
    Nevertheless, accurate information about conditions, 
including respect for human rights, in the northern areas under 
its control is scarce. So therefore, we call on all those who 
are prolonging the needless fighting in Afghanistan to shift 
their focus instead to bringing peace and a broad-based 
representative government to the people of Afghanistan.
    Now, all of this raises the obvious question. What more can 
be done to deal with Afghanistan's ongoing tragedy and with the 
risks it poses to others? While we have worked hard to develop 
a united front on Afghanistan with a number of key countries, 
multilateral diplomacy has had only a limited effect to date. 
The Six-Plus-Two group, which I discussed with you before, of 
Afghanistan's neighbors plus the United States and Russia, has 
been unable to agree on concerted political action. And it is 
now focusing on the narrower practical issue of counter 
narcotics cooperation.
    Let me discuss our strategy, Mr. Chairman. Today we are 
perusing a two-prong strategy. First, firm pressure on the 
Taliban on the issues of greatest concern: terrorism, 
narcotics, and human rights. On terrorism, President Clinton 
took the lead last year by issuing an Executive order imposing 
unilateral sanctions on the Taliban designed to stop them from 
deriving any revenue or benefit from economic interaction with 
the United States.
    The U.N. Security Council followed up in October, 1999 
based on a U.S. sponsored resolution by unanimously adopting 
Resolution 1267, which puts in place mandatory sanctions 
against Taliban-controlled assets and international airline 
flights until Bin Laden is brought to justice. These sanctions 
I want to stress target only the regime while providing 
unimpeded humanitarian access for the people of Afghanistan.
    In April of this year, the Security Council agreed that 
further action might be required. We are actively exploring 
those options which could include imposition of an arms embargo 
against the Taliban, which we have already put into effect 
ourselves.
    We have also let the Taliban know in no uncertain terms 
that we will hold them responsible for any terrorist acts 
undertaken by Bin Laden from Afghanistan. We reserve the right 
to use military force in self-defense if required.
    As we apply such pressure, we have also tried to engage the 
Taliban in a serious dialog. Some members of the Taliban have 
told us that they would like to improve their relations with 
us. They have even taken a few measures to demonstrate a 
willingness to work with us such as restricting Bin Laden's 
access to foreign media. But we have seen no indication that 
the Taliban are ready to take the serious actions on Bin Laden 
or any other issue that would be necessary for any improvement 
in our relations.
    The second prong of our Afghan strategy is both broader and 
longer-term: to promote the greatest possible involvement of 
Afghans in the search for peace in their own country. What is 
needed, in our view, is a sincere negotiating process among 
Afghans themselves toward a broad based inclusive government 
which all the Afghan people, first and foremost, and then the 
United States and the rest of the international community can 
accept and which can take up the cause of rebuilding this 
devastated country. This will require the involvement of a wide 
spectrum of Afghans inside and outside the country more than 
just the Taliban and the Northern Alliance.
    For this reason, we are encouraged by the efforts of 
Afghans around the world to contribute to this search for peace 
in group meetings, in Rome, Cyprus, Bonn, and elsewhere. Many 
advocate the convening of a Loya Jirga, or Grand Council, of 
Afghan's leaders to forge a new national accord. This could be 
a traditional and constructive step toward ending Afghanistan's 
anguish. It would offer Afghans an alternative vision of their 
future, authentically both Muslim and moderate, and one that 
would promise peace without tyranny. Regrettably, it may be 
precisely the appeal of this initiative that has led the 
Taliban, according to new press reports this week, to instigate 
the arbitrary arrest of Loya Jirga proponents.
    For our part, we have been meeting with such alternative 
Afghan representatives at a senior policy level, and have 
recently issued a statement of support for their legitimate 
objectives. In addition, we are providing modest financial 
support to the Rome-based effort, and diplomatic support for 
the Italian Government's lead on this issue. We are asking 
other interested countries for their support as well.
    Now, this brings me to a crucial aspect of implementing our 
two-pronged Afghan strategy I have just outlined: namely, the 
necessity of cooperation with other countries in the region and 
beyond. This is not, and cannot be, an attempt to impose some 
kind of outside power diktat on the proud people of 
Afghanistan, which history teaches us would be futile.
    What we seek is not so much confrontation with the Taliban, 
as common cause with all the other players who wish to contain 
and ultimately overcome the threats that the Taliban present. 
Accordingly, in my written testimony, which I am submitting for 
the record, Mr. Chairman, I have highlighted some of those 
players including Russia, India and countries of Central Asia.
    Now, this brings me to another country that is important in 
this regard, namely Pakistan, where the signals on these 
issues, frankly, are still mixed. Pakistan wants, as does the 
United States, to see peace and stability in Afghanistan--
afterall, it shares the longest common border with that 
country. We believe the Government of Pakistan also understands 
that the ``Talibanization''--or radicalization--of their 
country and of the region is something to avoid.
    Perhaps the recent incident in which the Taliban forcibly 
shaved the heads of a visiting Pakistani soccer team as 
punishment for wearing shorts--while playing soccer--will 
remind Pakistanis of the true nature of the Taliban once again.
    Moreover, Pakistan seeks to build political and economic 
bridges to Central Asia, and realizes that terrorism and 
extremism in Afghanistan and South Asia are serious obstacles 
to such regional cooperation and stability.
    Indeed, Pakistan has made known its views that the presence 
of Osama bin Laden is just such an obstacle. They helped 
recently to facilitate a meeting between Under Secretary Thomas 
Pickering and Taliban officials in Islamabad on the U.S. case 
against Bin Laden. We also understand that Pakistan is quietly 
urging the Taliban to review some of their ties to terrorists.
    At the same time, Mr. Chairman, Pakistani officials make 
the point that they do not control the Taliban. We believe, 
however, that Pakistan does have considerable influence in 
Afghanistan. The goal of our continued diplomacy is to urge 
Pakistan to use every aspect of its influence to convince the 
Taliban to render Bin Laden to justice and shut down 
Afghanistan's terrorist networks altogether.
    More broadly, we would support a Pakistani initiative to 
find common ground with Iran and others in working toward a 
peaceful solution of Afghanistan's civil war. We are pleased 
that just in the past few days Pakistan Foreign Minister Sattar 
has met with a delegation from the Rome process and expressed 
Pakistan's appreciation of the positive role a Loya Jirga could 
play.
    Mr. Chairman, I would now like to turn briefly to 
humanitarian issues. I know you agree that the Afghan people 
are bearing the brunt of the continuing conflict in 
Afghanistan. That is why the United States continues to lead 
the world in humanitarian assistance to the Afghan people, 
totaling around $70 million annually in recent years, rising to 
a projected $110 million in view of the extraordinary needs 
this year. Details are available in a fact sheet which has been 
attached to my testimony.\1\
---------------------------------------------------------------------------
    \1\ See page 13.
---------------------------------------------------------------------------
    Most of this funding, I should add, is channeled through 
the specialized U.N. affiliated relief and rehabilitation 
agencies or through American and international NGO's. I should 
also mention that we take special care in this context to 
ensure that our aid reaches those most in need, including 
women.
    We must also take into account extraordinary circumstances 
such as the current disastrous drought in adjusting our levels 
and types of aid. Our extra $4 million so far this year in 
well-targeted and I might add well-publicized, drought relief 
has been very well received and should generate, we hope, 
lasting good will--as the photographs I have brought along of 
Ambassador Milam on the docks of Karachi so vividly suggest.
    Mr. Chairman, Senator Boxer, let me conclude by saying 
that, from both the human and political standpoints, the 
situation in Afghanistan remains extremely difficult, but not 
without some hope that conditions may be changing.
    As I said earlier, we believe the Taliban has reached its 
high water mark. This is a regime which by its behavior at home 
and abroad has isolated itself from almost the entire world, 
and increasingly from its own people. There is a real sense in 
which Afghans and the concerned international community want 
many of the same things: An Afghan Government that is 
representative, that respects human rights, that rejects rather 
than embraces narcotic traffickers and terrorists.
    I believe our strategy of pressure on the Taliban, support 
for alternative Afghan voices and concrete cooperation with 
other countries on these issues can move us closer to that 
common objective. As we approach it, Mr. Chairman, it is my 
hope that Afghanistan can once again become a gateway nation of 
a different kind--a gateway for people, commerce and cultural 
exchange between different parts of Asia and the world and the 
positive sense that we would all desire to see. Thank you, very 
much.
    [The prepared statement of Mr. Inderfurth follows:]

             Prepared Statement of Hon. Karl F. Inderfurth

    Thank you, Mr. Chairman. I greatly appreciate this opportunity to 
speak with you about the topic you have chosen for today's hearing on 
Afghanistan--``The Taliban: Engagement or Confrontation?'' It is, as my 
testimony will make clear, an important, timely, and difficult subject.

                    AFGHAN UPDATE: SIGNS OF CHANGE?
    The situation in Afghanistan continues to cause grave concern to 
the international community, and great suffering to that country's own 
population. Recently Afghanistan was described in Newsweek as ``A 
Country in Collapse.'' I cannot dispute that characterization. Some of 
this is the legacy of the Afghans' two decades of war--first against 
the Soviet occupation, and then against each other. And yet a bitter 
irony is that today many of the country's problems are actually 
aggravated by its own would-be rulers, the Taliban. One recent telling 
example is the case of Mary MacMakin, a U.S. citizen who has long lived 
in Afghanistan and has devoted over four decades of humanitarian 
service to its people--only to be detained by the Taliban and then 
expelled from the country this very month. We hope that Ms. MacMakin 
will be able to return to Afghanistan, if she so wishes, to continue 
her important work.
    Unfortunately, however, the Taliban's overall record does not 
inspire much confidence in this, or any other, regard. When they swept 
to power from Kandahar to Kabul in late 1996, they seemed to have 
considerable popular acceptance, based on an understandable disgust 
with protracted civil war and a simple desire for personal security. 
Since then, while the Taliban have extended their control to cover 
approximately 85 percent of Afghanistan, their popularity and 
legitimacy now appear to be in decline. They have failed to end the 
civil war, and they have failed to offer the Afghan people a better 
life. Instead, the Taliban continue to seek a military victory over 
their opponents in northern Afghanistan, but that objective continues 
to elude their grasp. The Taliban's two offensives north of Kabul 
earlier this month led to the heaviest fighting of the year and ended 
quickly with heavy Taliban casualties and no change in the frontlines. 
We believe the Taliban now have little prospect of completing their 
goal of gaining control over the 15 percent of the country held by the 
opposition. In short, Mr. Chairman, we believe the Taliban have reached 
their high-water mark.
    Let me cite a few of the latest indicators of erosion in Taliban 
authority and effectiveness, all occurring during the past several 
months. In March, Ismail Khan, the anti-Taliban former governor of 
Herat, escaped with two senior aides from a Kandahar prison where he 
had been held since 1997. In April, the Taliban-appointed governor of 
Kunduz province was assassinated. More recently, we have reports of 
sabotage at Kabul airport. We also hear of Taliban difficulty 
conscripting new recruits for this year's spring and summer offensives, 
due to serious local resistance and low morale. There are equipment 
shortages for the Taliban war machine and serious splits within the 
Taliban movement itself. It is increasingly clear that many Afghans are 
giving up whatever hope they had for Taliban rule. Many would surely 
prefer a more inclusive, more effective, more tolerant and perhaps 
above all more peacefully inclined government, if that option were to 
become available.

                       BACKGROUND OF U.S. POLICY
    What has been the U.S. response? I must emphasize that, contrary to 
some false and damaging allegations, the U.S. does not now support and 
has never supported the Taliban. When they took over the capital of 
Kabul in 1996, we told them we would look at what they did, and react 
accordingly. Well, what they have done, in a word, is horrendous. They 
have chosen to prolong their country's agonizing civil war, while 
oppressing its numerous ethnic and religious minorities. They have 
trampled on the human rights of all Afghans, especially women and 
girls. They have condoned and indeed profited from the deadly trade in 
narcotics. And they have condoned that other scourge of civilized 
society, namely terrorism, by providing among other things safe haven 
for Usama Bin Laden and his network. This is the murderer directly 
responsible for the loss of a dozen American and hundreds of other 
innocent lives in the East Africa embassy bombings two years ago. We 
believe Bin Laden continues to this day to plan further acts of 
international terrorism.
    We have consistently and categorically opposed all of these Taliban 
policies. This is precisely the message that we have delivered directly 
to the Taliban in the course of all our contacts with them. I 
personally have met with Taliban officials in Kabul, Islamabad, New 
York and Washington. I regret to report today that they seem determined 
to ignore our message. If anything, the Taliban have moved even further 
in the wrong direction. On terrorism, not only have they refused to 
hand over Bin Laden as called for by the U.N. Security Council, but 
they have aided and abetted other terrorists worldwide, including 
violent groups in Chechnya and Central Asia.
    I want to make one thing very clear. The Taliban, and some of their 
supporters, continue to misrepresent our campaign against terrorism as 
an attack against Islam. Nothing could be further from the truth. We do 
not oppose Islam. We respect Islam. We do not oppose those who practice 
their faith in peace. We do not oppose those who have legitimate 
political concerns they want redressed. But we do oppose those who 
commit or condone criminal acts, especially those who commit murder and 
inflict grievous injury against civilians, in the name of any ideology, 
religion, or cause.
    On human rights, though we have publicly recognized occasional 
local improvements, the central authorities in Kabul have regressed: 
witness the fate of Mary MacMakin that I referred to earlier, or the 
new edict forbidding females from working even in international 
humanitarian activities. On narcotics, the Taliban have allowed 
Afghanistan to acquire, almost overnight, the distinction of the 
world's largest producer of illicit opium, thereby contributing to the 
destruction of countless additional lives every year. To borrow an 
expression from you, Mr. Chairman, Afghanistan has become a gateway 
country--a gateway for some of the worst evils of drugs and violence, 
which daily pass through it enroute to other parts of the globe.
    Finally, on the prospects for Afghan peace and reconciliation, the 
Taliban have not wavered from their commitment to a military solution. 
They talk of peace, even as they launch new military actions. They 
agree to exchange prisoners with the Northern Alliance under Islamic 
auspices, and then renege. Independent political figures and political 
opponents of the Taliban are shot down, including just a year ago the 
esteemed tribal elder Mr. Ahmed Karzai, whose son Hamad is here with us 
today to carry on his part of the traditional leadership and consensus-
building role so sorely needed in Afghanistan today.
    Mr. Chairman, my strong criticism of the Taliban should not be read 
to imply U.S. recognition for the opposition Northern Alliance led by 
Ahmed Shah Masood. The Alliance incorporates representatives of many of 
Afghanistan's minority ethnic populations, and appears to come closer 
to meeting international standards of human rights. Nevertheless, 
accurate information about conditions, including respect for human 
rights, in the northern areas under its control is scarce. We call on 
all those who are prolonging the needless fighting in Afghanistan to 
shift their focus instead to bringing peace and a broad-based 
representative government to the people of Afghanistan.
    All of this raises the obvious question: What more can be done to 
deal with Afghanistan's ongoing tragedy, and with the risks it poses to 
others? While we have worked hard to develop a united front on 
Afghanistan with a number of key countries, multilateral diplomacy has 
had only a limited effect to date. The Six-Plus-Two group of 
Afghanistan's neighbors plus the United States and Russia has been 
unable to agree on concerted political action, and is now focusing on 
the narrower practical issue of counter-narcotics cooperation.
    The U.N. Secretary General's previous representative on 
Afghanistan, Lakhdar Brahimi, resigned last year with little to show 
for his lengthy and tireless efforts, thanks largely to Taliban 
intransigence and the lack of commitment from external parties to use 
their influence with the warring factions to bring them to the 
negotiating table. His successor as of the beginning of this year, 
Francesc Vendrell, is making an admirable effort to address this acute 
tangle of problems, but wisely acknowledges the limitations of his 
mission's mandate and capabilities in light of Afghan realities. We are 
and will stay in close touch with him, and with others concerned about 
Afghanistan. We are planning a new series of meetings with Ambassador 
Vendrell and others at the U.N. this coming fall. At the same time, we 
need to consider what U.S. strategy is most appropriate in this 
situation.

              U.S. STRATEGY TODAY: A TWO-PRONGED APPROACH
    Mr. Chairman, the strategy that we are pursuing today is two-
pronged: First, firm pressure on the Taliban on the issues of greatest 
concern: terrorism, narcotics, and human rights. On terrorism, 
President Clinton took the lead last year by issuing Executive Order 
13129, imposing unilateral sanctions on the Taliban designed to stop 
them from deriving any revenue or benefit from economic interaction 
with the United States. The U.N. Security Council followed up in 
October 1999 by unanimously adopting Resolution 1267, which puts in 
place mandatory sanctions against Taliban-controlled assets and 
international airline flights until Bin Laden is brought to justice. 
These sanctions, I want to stress, target only the regime, while 
providing unimpeded humanitarian access for all the people of 
Afghanistan. In April of this year, the Security Council agreed that 
further action might be required. We are actively exploring those 
options, which could include imposition of an arms embargo against the 
Taliban. We have also let them know, in no uncertain terms, that we 
will hold them responsible for any terrorist acts undertaken by Bin 
Laden from Afghanistan. We reserve the right to use military force in 
self-defense if required.
    As we apply such pressure, we have also tried to engage the Taliban 
in a serious dialogue. Some members of the Taliban have told us they 
would like to improve their relations with us. They have even taken a 
few measures to demonstrate a willingness to work with us, such as 
restricting Bin Laden's access to foreign media. But we have seen no 
indication that the Taliban are ready to take the serious actions--on 
Bin Laden or on other issues--that would be necessary for any real 
improvement in our relations.
    The second prong of our Afghan strategy is both broader and longer-
term: to promote the greatest possible involvement of Afghans in the 
search for peace in their own country. What is needed, in our view, is 
a sincere negotiating process among Afghans themselves toward a broad-
based, inclusive government which all the Afghan people, first and 
foremost, and then the U.S. and the rest of the international 
community, can accept, and which can take up the cause of rebuilding 
the country. This will require the involvement of a wide spectrum of 
Afghans inside and outside the country--more than just the Taliban and 
the Northern Alliance.
    For this reason, we are encouraged by the efforts of Afghans around 
the world to contribute to this search for peace, in groups meeting in 
Rome, Cyprus, Bonn, and elsewhere. Many advocate the convening of a 
Loya Jirga, or Grand Council, of Afghan leaders to forge a new national 
concord. This could be a traditional and constructive step toward 
ending Afghanistan's anguish. It would offer Afghans an alternative 
vision of their future, authentically both Muslim and moderate, and one 
that would promise peace without tyranny. Regrettably, it may be 
precisely the appeal of this initiative that has led the Taliban, 
according to new press reports this week, to instigate the arbitrary 
arrest of Loya Jirga proponents.
    or our part, we have been meeting with such alternative Afghan 
representatives at a senior policy level, and have recently issued a 
statement of support for their legitimate objectives. In addition, we 
are providing modest financial support to the Rome-based effort, and 
diplomatic support for the Italian government's lead on this issue. We 
are asking other interested countries for their support as well.
    Let me make one thing clear. Critics of those who are seeking to 
convene a Loya Jirga claim that its supporters want to reestablish a 
monarchy in Afghanistan, and return former king Zahir Shah to power. 
Zahir Shah has offered his prestige as elder statesman to this process 
in an attempt to restore peace to his shattered homeland, but we see no 
evidence that he or his colleagues seek to revive the monarchy. Rather, 
Loya Jirga is a leadership forum where all speak their minds freely and 
come to a political consensus. It is the traditional process Afghans 
have used for centuries to achieve resolution to crises in their land.
    Mr. Chairman, it is time Afghans were allowed to restore 
equilibrium in their political affairs and tranquillity within their 
borders, without adverse outside interference. A traditional, sovereign 
Afghanistan at peace with its neighbors would be the best guarantee for 
stability in South and Central Asia as a whole.

                       INTERNATIONAL COOPERATION
    This now brings me to a crucial aspect of implementing the two-
pronged Afghan strategy I have just outlined: the necessity of 
cooperation with other countries in the region and beyond. This is not, 
and cannot be, an attempt to impose some kind of outside power diktat 
on the proud people of Afghanistan, which history teaches would be 
futile. What we seek is not so much confrontation with the Taliban, as 
common cause with all the other players who wish to contain and 
ultimately overcome the threats that the Taliban present. Accordingly, 
I would like to take just a few moments to highlight some of these 
players.
    First, with regard to Russia, President Clinton and Russian 
President Putin recently agreed to form a bilateral working group on 
Afghanistan. This group should serve to improve diplomatic cooperation 
with Russia on this problem. It will also complement our ongoing 
counter-terrorism efforts. The first meeting of this working group will 
take place in the near future and will focus on joint means to counter 
the threat emanating from Afghanistan. This subject also figured 
prominently in the very detailed and useful discussions on South Asia 
that I conducted in Moscow in May.
    With India, we have this year institutionalized very productive 
consultations on counter-terrorism, naturally with a special focus on 
Afghanistan and related South Asian issues. We share India's concern 
about the spillover from Afghanistan to other areas, including Kashmir, 
where violence is increasingly associated with foreign elements. We 
appreciate India's earlier closing down of Ariana flights to Amritsar 
and its strong cooperation in implementing the U.N. sanctions against 
the Taliban, in international counternarcotics and other law 
enforcement efforts.
    Moving to Central Asia, the U.S. and the countries of that region 
took a significant step last month when we hosted a Central Asia 
counter-terrorism conference here in Washington. Representatives from 
Kazakstan, Kyrgyzstan, Uzbekistan, and Tajikistan all agreed with us to 
enhance cooperation in denying sanctuary or support to terrorists. This 
issue, and the broader issues of Afghanistan's overall fate, will 
remain high on the agenda in all of our high-level contacts with the 
Central Asian states. These countries have started working better with 
each other, with Russia through OTS channels, and with China in the 
``Shanghai Five'' group to confront the common threats from Taliban-
ruled Afghanistan.
    This brings me to Pakistan, where the signals on these issues, 
frankly, are still mixed. Pakistan wants, as does the U.S., to see 
peace and stability in Afghanistan--after all, it shares the longest 
common border with that country. We believe the government of Pakistan 
also understands that the ``Talibanization''--or radicalization--of 
their country and of the region is something to avoid. Perhaps the 
recent incident in which the Taliban forcibly shaved the heads of a 
visiting Pakistani soccer team as punishment for wearing shorts--while 
playing soccer--will remind Pakistanis of the true nature of the 
Taliban yet again. Moreover, Pakistan seeks to build political and 
economic bridges to Central Asia, and realizes that terrorism and 
extremism in Afghanistan and South Asia are serious obstacles to such 
regional cooperation and stability. Indeed, Pakistan has made known its 
view that the presence of Usama Bin Laden is just such an obstacle. 
They helped facilitate a recent meeting between Under Secretary 
Pickering and Taliban officials in Islamabad on the U.S. case against 
Bin Laden. We also understand that Pakistan is quietly urging the 
Taliban to review some of their ties to terrorists.
    At the same time, Mr. Chairman, Pakistani officials make the point 
that they do not control the Taliban. We believe, however, that 
Pakistan does have considerable influence in Afghanistan. The goal of 
our continued diplomacy is to urge Pakistan to use every aspect of its 
influence to convince the Taliban to render Usama Bin Laden to justice 
and shut down Afghanistan's terrorist networks altogether. More 
broadly, we would support a Pakistani initiative to find common ground 
with Iran and others in working together on a peaceful solution of 
Afghanistan's civil war. We are pleased that just in the past few days 
Pakistan Foreign Minister Sattar has met with a delegation from the 
Rome Process and expressed Pakistan's appreciation of the positive role 
Loya Junga could play.

                          HUMANITARIAN ISSUES
    Mr. Chairman, I would now like to turn briefly to humanitarian 
issues. The human crisis in Afghanistan is eloquently summarized in the 
latest report by U.N. Secretary General Kofi Annan. Allow me to cite a 
few lines here:

          The situation of the Afghan people remains deplorable. Four 
        years after the takeover of Kabul by the Taliban, visitors 
        compare the city to a bombed-out city a few years after the end 
        of the Second World War, except that no reconstruction is in 
        sight and its people have little hope for improvement. There is 
        a growing process of pauperization throughout Afghanistan, 
        exacerbated by the most severe drought in 30 years. Afghanistan 
        remains in a state of acute crisis--its resources depleted, its 
        intelligentsia in exile, its people disfranchised, its 
        traditional political structures shattered and its human 
        development indices among the lowest in the world.

    I know you agree, Mr. Chairman, that the Afghan people do not 
deserve to suffer in this way. That is why the U.S. continues to lead 
the world in humanitarian assistance to the Afghan people, totaling 
around $70 million annually in recent years, rising to a projected $110 
million in view of the extraordinary needs this year. Details are 
available in the attached fact sheet. Most of this funding is channeled 
through the specialized U.N.-affiliated relief and rehabilitation 
agencies, or through American and international NGO's. Their integrity, 
expertise and on-the-ground experience makes them the most effective 
conduits for such programs, which we hope will continue with your 
support. It is a sound investment, not only in averting humanitarian 
tragedy, but in preserving our friendship with the people of 
Afghanistan, while we and they await a better future.
    We take special care, in this context, to ensure that our aid 
reaches those who need it most, including women. Since FY 1998, for 
example, we have provided assistance to programs in various regions of 
Afghanistan that involve women in local decisions and also provide them 
with job opportunities. These programs not only help local communities, 
but also integrate women into them as productive members, in a way both 
consistent with Islam and human rights standards, thereby fostering a 
more tolerant grass-roots culture in Afghanistan. We must also take 
into account extraordinary circumstances, such as the current 
disastrous drought, in adjusting our levels and types of aid. Our extra 
$4 million so far this year in well-targeted and well-publicized 
drought relief has been very well received and should generate lasting 
goodwill--as the photographs I brought along of Ambassador Milam on the 
docks of Karachi so vividly suggest.

                               CONCLUSION
    Mr. Chairman, let me conclude by saying that, from both the human 
and the political standpoints, the situation in Afghanistan remains 
extremely difficult, but not without some hope that conditions may be 
changing. As I said earlier, we believe the Taliban regime has reached 
its high-water mark. This is a regime which, by its behavior at home 
and abroad, has isolated itself from almost the entire world, and 
increasingly from its own people. There is a real sense in which 
Afghans and the concerned international community want many of the same 
things: An Afghan government that is representative, that respects 
human rights, that rejects rather than embraces narcotic traffickers 
and terrorists. I believe our strategy of pressure on the Taliban, 
support for alternative Afghan voices, and concrete cooperation with 
other countries on these issues can move us closer to that common 
objective. As we approach it, Mr. Chairman, it is my hope that 
Afghanistan can once again become a gateway nation of a different 
kind--a gateway for people, commerce, and cultural exchange between 
different parts of Asia and the world, in the positive sense that we 
would all desire to see.

                                 ______
                                 

           U.S. Humanitarian Assistance to the Afghan People

                     [Updated fact sheet: 7/19/00]

    The U.S. has long been involved in humanitarian assistance to the 
Afghan people. This assistance still continues. The U.S. is the largest 
single donor of humanitarian aid to the Afghan people. So far this 
year, U.S. assistance to Afghans, both inside and outside Afghanistan, 
totals about $80 million.
    U.S. assistance is intended to provide humanitarian assistance in 
general and to ensure that the Afghan people do not suffer from the 
sanctions imposed on the Taliban. It is also intended to relieve the 
suffering resulting from the severe drought in Afghanistan.
    Because of the Taliban's continuing refusal to hand over indicted 
terrorist Usama bin Laden to a country where he can be brought to 
justice, the United Nations imposed sanctions on the Taliban on 
November 14, 1999, in accordance with UNSC resolution 1267. The aim of 
the United Nations sanctions is to persuade the Taliban to meet their 
responsibility to hand over bin Laden, without adding to the hardships 
already facing the citizens of Afghanistan. There has been considerable 
concern in the United States and around the world over the plight of 
the Afghan people, who have suffered the ravages of twenty years of 
warfare, and who are now suffering from the worst drought in 20 years.
    The sanctions are specific: they target only the aircraft, bank 
accounts and other financial assets of the Taliban. The do not impede 
the flow of humanitarian aid, including food and medicine, nor do they 
prohibit private cross-border trade with Afghanistan. The sanctions 
specifically allow for exemptions from flights related to religious 
duty and humanitarian emergencies. The United Nations resolution was 
carefully written not to impede the Afghan people in their struggle to 
build a safe, peaceful future for themselves and their families.
    Of every two dollars of global assistance to Afghans, half is food 
aid; and of every ten dollars' worth of food aid to Afghans, nine 
dollars is a United States contribution. In 1999, the United States 
contributed over $70 million in assistance of all sorts to the Afghan 
people. So far, in FY 2000, USG humanitarian assistance to Afghans 
totals approximately $80 million. Projected contributions during this 
fiscal year are expected to bring the total to approximately $110 
million. Below is a partial summary of U.S. contributions to 
humanitarian assistance for the Afghan people from October 1, 1999 
through July 15, 2000. (Projected figures are in italics.)
    In FY 2000, $8 million has been given to the U.N. High Commissioner 
for Refugees (UNHCR). This contribution supports UNHCR's protection, 
care and maintenance activities for Afghan refugees in Pakistan, and 
Iran, and supports UNHCR protection, repatriation, and re-integration 
activities for Afghan refugees who return to Afghanistan. (In addition, 
at least $3 million more will be contributed to the UNHCR during the 
course of this fiscal year, for a projected total of $11-12 million.)
    Approximately $8 million will be provided during the current fiscal 
year to various NGOs providing housing, health care, and education for 
Afghan refugees. (Final figures and breakdowns should be available in 
August. This figure is up from the $5.4 million that was contributed 
last year.)
    Approximately $8.6 million will be given to the International 
Committee of the Red Cross (ICRC) during the current fiscal year. This 
contribution to the ICRC's Asia and Pacific Appeal supports ICRC's 
programs for victims of conflict throughout South Asia, mainly in 
Afghanistan.
    The Food for Peace Program (FFP) has contributed approximately $8.5 
million of wheat to the World Food Program's Protracted Relief and 
Recovery Operations (PRRO) for Afghans inside Afghanistan, so far this 
year. (Additional contributions of commodities, to the Aga Khan 
Foundation for northern Afghanistan, totaling approximately 6,870 
metric tons, and valued at $5 million, are in the pipeline.
    The U.S. Department of Agriculture (USDA) recently committed 60,000 
metric tons of wheat, valued at approximately $24 million, to WFP's 
emergency feeding operation for victims of drought in Afghanistan. This 
commitment is in addition to 75,000 metric tons of wheat, valued at $33 
million, committed by USDA in February to the World Food Program's 
(WFP's) Protracted Relief and Recovery Operation (PRRO) for vulnerable 
populations and households, and returning refugees and displaced 
persons in Afghanistan. This tonnage (75,000 metric tons) is currently 
being shipped to WFP/Afghanistan, Afghanistan.
    More than $4 million in emergency relief assistance through the 
Office of U.S. Foreign Disaster Assistance (OFDA) has been given to 
various NGOs in support of emergency assistance for Afghans inside 
Afghanistan, The OFDA is responding to the current drought by focusing 
on the following sectors: provision of potable water, preventative 
health, support to livelihoods through livestock and agriculture 
projects, and transport of relief workers and commodities through the 
UN's air service. (Additional projected contributions of up to $4 
million for drought response.)
    The USG also has contributed $3 million to de-mining efforts in FY 
2000, and $500,000 to the U.N. for the FY 2000 Afghanistan Emergency 
Trust Fund.

    Senator Brownback. Thank you, Secretary Inderfurth. From 
the clock, it is 7 minutes and we can bounce back and forth as 
long as it goes or until a vote time that we would have.
    I appreciate the statement. Recently, Russia has made a 
number of statements regarding Afghanistan. I would be curious 
as to your thoughts about those statements that Russia has made 
in any communication that we have had with Russia on dealing 
with Afghanistan.
    Mr. Inderfurth. Mr. Chairman, the Russians are very 
concerned about Afghanistan. I note in my written testimony 
that President Clinton and President Putin have recently agreed 
to establish a joint working group on Afghanistan to address 
these concerns. We have worked very closely with the Russians 
in New York at the United Nations on the first U.N. Security 
Council resolution which I referred to in my testimony and we 
are looking at the other measures called for by the Security 
Council to see if we should move forward with a second 
resolution.
    They are concerned about Afghanistan for a number of 
reasons, including the support the Taliban has provided to 
terrorist training that has spilled over into the Caucasus, 
into Chechnya and Dagistan. They are very concerned that the 
Taliban have recognized Chechyan sovereignty. They are very 
concerned about Bin Laden's operations. And they do see this as 
a contributing factor to the ongoing crisis in Chechnya.
    We agree with them that Afghanistan is the gateway in many 
respects, not only affecting the situation in Chechnya, but 
also in Kashmir and in other parts of the region. So we are 
working with them to see what can be done.
    I believe that Russia is a key player here. I was there 
myself in May for consultations with Russian officials on 
Afghanistan and more broadly South Asia. At that time, there 
was a question of Russian intentions--I think their spokesman 
had referred to the possibility of air strikes against the 
Taliban in terms of terrorists making their way from 
Afghanistan to Chechnya.
    The Russians made it clear that this was not something that 
they were actively considering, but it is a matter of grave 
concern to them. I urged that any actions that they take be 
designed and would be ensured to weaken, not strengthen the 
Taliban. I think they took that point.
    Senator Brownback. Looking at the Northern Alliance which 
controls some, I guess, 15 percent of the land mass of 
Afghanistan, what is the administration's view toward providing 
support to the Northern Alliance? Food aid I presume is 
probably taking place to some degree now. But other development 
type of assistance or support to the Northern Alliance.
    Mr. Inderfurth. Well, I think the types of assistance that 
you have suggested are ones that the United States could and 
should support, including humanitarian assistance and food aid. 
I think where we draw the line is offering the Northern 
Alliance military assistance. I think that that would be a 
mistake in terms of our becoming actively involved militarily 
once again in Afghanistan.
    As my statement makes clear, our principle focus of 
opposition is on the Taliban and its behavior and the actions 
that they have taken across the range of issues, human rights, 
terrorism, narcotics and the rest. But we do not want to imply 
that as a result of that opposition that we are endorsing the 
Northern Alliance.
    We believe that what must take place is not a government of 
only two parties, the Taliban and the Northern Alliance, but of 
all parties. That would include ethnic Tajics, Uzbechs, Hazara, 
all of the various factions and ethnic groups that make up 
Afghanistan. So we do want to make sure that our humanitarian 
assistance makes its way to all Afghans throughout the country, 
including in that part of Afghanistan, the Panshir Valley, that 
the Northern Alliance controls.
    We are concerned, quite frankly, that the Northern Alliance 
itself has been split with internal rivalry throughout its 
history with General Dostrum, with Commander Masood and others. 
That has been part of the problem, that there has not been a 
unified opposition to the Taliban that the Northern Alliance 
has been, as I said, split.
    That is why we are actively supporting those Afghan groups 
outside the country that are trying to bring about some 
national consensus that would move toward a broad based 
government. And I think that you will hear more about that in 
testimony after I have concluded.
    Senator Brownback. Once the outside groups that you have 
been working with to try to build a uniform position, a united 
position in Afghanistan, once they are coming and pulling 
together, are there plans to help them move more aggressively 
forward in Afghanistan to reestablish a more civil type of 
government?
    Mr. Inderfurth. Well, we are providing some support now, 
$100,000 to the so-called Rome process, to help them facilitate 
their effort to both convene and get their message to other 
governments. Hopefully, they will have an opportunity to 
deliver that message directly to the Taliban itself and to the 
Northern Alliance.
    How they can move beyond that, as you said, aggressively, 
is a very good question. Because we are under no illusion that 
Afghans meeting outside the country can dislodge the Taliban 
from the control of 85 percent of the country.
    We are hopeful, indeed we are encouraged by what I said at 
the beginning of my testimony, that there are signs that the 
Taliban has reached its high water mark and that there are 
signs that it may be receding. Part of this, quite frankly, is 
the active opposition that Commander Masood has been able to 
mount in that remaining 15 percent of the country. That is 
important.
    But in terms of Afghans coming together for a Loya Jirga, 
the key part of that will be a recognition by the Taliban that 
they cannot attain their goal of control of Afghanistan through 
military power. That they must come to a conclusion that they 
need to negotiate a broad based settlement. At that point, I 
think we can do even more to provide assistance to these Afghan 
groups to aggressively move in that direction.
    Senator Brownback. Good. Senator Boxer.
    Senator Boxer. Thank you so much, Mr. Chairman. Mr. 
Secretary, I appreciate that you are trying very hard to make 
progress in this part of the world. But I have to say I am a 
little disappointed in the testimony when I see that you 
mentioned women and girls very rarely in these seven page of 
testimony. You mention them on page two. You say, ``They 
trampled on the human rights of all Afghans, especially women 
and girls.'' And then you mention women and girls on page 
seven. You say, ``We take special care in this context to 
ensure our aid reaches the people who need it most including 
women.''
    Now, I have to say, unless I am missing something, that 
when a regime clamps down on the majority of its population 
like it clamps down on women and girls, and we see from the 
Burka that the intent is to essentially make these people 
invisible, give them no recognition as human beings, I have to 
believe that our country should be very outspoken on this. 
Because I think it helps us to rally public opinion against the 
Taliban, even more than all the things you talk about.
    So I am a little distressed. I want to go back to when we 
asked Secretary Albright about this. She said, and I quote, 
``There are those who suggest that all this is cultural''--
meaning the treatment of women and girls--``and there is 
nothing we can do about it.'' And she goes onto say, ``I say it 
is criminal and we have a responsibility to stop it.''
    Now, that is the Secretary of State. So Mr. Secretary, what 
specific steps have the administration taken to improve the 
lives of women and girls in Afghanistan? And how would you rate 
the effectiveness of these steps?
    Mr. Inderfurth. Well, I would hope that I could allay your 
concerns and dismay that not more time and attention was paid 
to this testimony to the tragic situation of women and girls in 
Afghanistan.
    I too have a Burka which I have in my office and which I 
obtained when I was in Kabul several years ago. And I bring it 
out frequently to demonstrate what that represents.
    This testimony was designed to talk about what pressures 
and influence we can bring to bear on the Taliban. I have 
testified at greater length on the situation of women and 
girls. I have appeared on a panel discussion in New York on the 
Council on Foreign Relations devoted entirely to that subject. 
And I would be glad to provide you with that testimony.
    Senator Boxer. Good.
    Mr. Inderfurth. And most importantly, I think that this 
administration has made clear in very public statements by 
President Clinton, by Secretary Albright and by the First Lady 
the abhorrence we have for the Taliban's treatment of women and 
girls in Afghanistan.
    So I hope that taking that into account, your concerns 
about the lack of statements in my testimony will be put into 
perspective.
    Senator Boxer. If I could just say, I totally appreciate 
that and believe that. But I think since the purpose of the 
hearing is to discuss how we can bring pressure to bear, I just 
want to make a statement to you that I believe that everytime 
you talk about the subject, do not isolate it to a particular 
hearing on the treatment of women and say, well, I said that.
    Mr. Inderfurth. I understand.
    Senator Boxer. In other words, I am suggesting to you that 
when the world knows more, and sometimes it takes repetition. 
Senator Brownback and I know this. Whether it is our campaigns 
or what we believe in, you have got to keep on reiterating 
these issues. And I do not think that we should separate out 
the treatment of women and girls to another type of a hearing. 
I think we should weave it into everything we do. Because I 
think that is so shocking to people. And even though we think 
everyone knows it because we think about it all the time--the 
three of us--it is not really widely known as you think.
    I wanted to ask you, because I do not have that much time, 
it is my understanding that Pakistan and Saudi Arabia have 
given support to the Taliban. To what extent have these two 
countries provided assistance to the Taliban? And to what 
extent has the United States taken steps to urge Pakistan and 
Saudi Arabia to withdraw their support?
    Mr. Inderfurth. Well, with respect to Saudi Arabia, they 
have withdrawn a great deal of their support from the Taliban. 
And we have urged them to do so. My written testimony and my 
oral testimony here discussed what we have been doing with 
Pakistan.
    As I said, their record is mixed with respect to what steps 
they are taking to deal with Afghanistan and with the Taliban. 
In all of our discussions with both countries, the issue of 
women and girls has been raised. And I mentioned my own 
personal contacts with the Taliban in these four different 
locations. And in each of those instances, their treatment of 
women and girls has been raised.
    So, I very much take your point. We will not separate out 
this subject for separate testimony. It has been a part of 
every testimony that I have given on the subject. And I will 
make sure that it continues to be.
    In terms of specific programs, because you asked about 
this, in addition to speaking out in every international forum 
possible about this subject, we have also provided several 
million dollars in assistance for health and education, 
programs for Afghan women and girl refugees. We are continuing 
to fund such programs, emphasizing health and education 
projects for Afghan women and girls. Our budget cycle is being 
reviewed now and I will be glad to provide you additional 
information and would very much like to have your suggestions 
of additional projects and programs that we should be looking 
at.
    We have also launched a U.S. resettlement program for 
Afghan women at risk and their families. We expect to admit 
about 1,500 individuals in this fiscal year. And I think that 
is a substantial program and that has been a substantial 
increase over the past.
    Senator Boxer. Mr. Chairman, I would like to submit some 
followup questions regarding----
    Senator Brownback. I think we have a couple more minutes 
here before we have to go over and vote. And if you want to go 
ahead with a couple of those, that is fine.
    Senator Boxer. I really just have one more series of 
questions but I will just make it one. I am concerned about the 
refugee applications of Afghan women and their families. They 
are processed under P-1 category. And this status requires a 
specific referral from UNHCR and extensive evidence from each 
individual refugee demonstrating the targeting for immediate 
danger.
    And it is my understanding that this P-1 process is not 
sensitive to the special needs of Afghan women and often causes 
long delays. Would the administration consider creating a P-2 
category for Afghan women and girls that would reduce the need 
of each individual to present specific evidence that they have 
been persecuted since we all know that women and girls are 
persecuted per se.
    Mr. Inderfurth. Let me get to you with an answer on that. 
It sounds very reasonable to me, but let me consult at the 
Department and get back to you.
    [The following response was subsequently received.]

          Response of Hon. Karl F. Inderfurth to Senator Boxer

    Question. Would the Administration consider a P-2 status for Afghan 
women?

    Answer. We share Senator Boxer's abiding concern for the plight of 
Afghan women and have taken significant steps to increase the number of 
women at risk who are resettled in the United States.
    Our goal in resettling vulnerable Afghans, particularly Afghan 
women and girls, is to afford maximum protection for the safety and 
welfare of the individuals and to expedite processing of those in need 
of rapid resettlement because of danger to their lives and their 
families.
    Given the limitations on our resources, we believe that it is 
essential to focus on the most urgent cases and to involve other 
countries in this effort. Accordingly, continued reliance on UNHCR to 
identify urgent protection cases in the country of asylum is the 
fairest and most effective approach. As a multilateral effort, UNHCR 
involvement includes both the United States and other countries and is 
consistent with other aspects of our overall assistance to Afghan 
refugees.
    We are also taking steps to increase the resources of the UNHCR to 
ensure priority resettlement for the most urgent cases.
    In 1999, the Department of State and the U.S. Immigration and 
Naturalization Service established a resettlement processing office in 
Islamabad. This office was established with a specific mission to 
expand and expedite the processing of Afghan women identified by UNHCR 
as Women-At-Risk.
    The U.S.-supported program is providing a significant resettlement 
opportunities within resource constraints for vulnerable Afghan women 
refugees. We are seeing results.
    In FY 1999, 367 Afghans, most identified as women at risk and their 
family members, were resettled in the U.S. Several hundred additional 
cases of Afghan women and their families, involving more than 1,500 
individuals are being processed for admission to the U.S. in FY 2000.
    The P-2 category is an effective mechanism for processing refugees 
for resettlement, because individuals in a P-2 category are eligible to 
directly apply to the U.S. admissions program. However, a category as 
broad as women at risk, involving potentially tens or even hundreds of 
thousands of applicants will only result in a significant slowing of 
refugee processing. This is because the U.S. Government does not have 
the resources to process direct applications from an applicant pool so 
large, nor deal with the security problems inherent in managing such a 
large number. With a direct application process, there is a good chance 
that many of those most compelling cases would not get processed 
because of the diversion of resources and personnel to process those 
who are not genuine candidates for resettlement.
    In Pakistan, when rumors of a special program for Afghan women 
circulated, the UNHCR offices were so overwhelmed by potential 
applicants that operations came to a virtual halt and UNHCR had to 
restrict access to their offices for days.
    Processing women at risk for U.S. resettlement is a priority for 
the USG. We have made it clear numerous times to our partners in 
refugee processing that we have a very great interest in these cases. 
We will continue to focus our efforts on the plight of Women-at-Risk.

    Senator Boxer. Thank you again, Mr. Chairman.
    Senator Brownback. Thank you, Senator Boxer. And thanks for 
raising those important issues. Women's rights, lack thereof, 
within Afghanistan. I think it is something that just shocks 
all of our consciousness when you see that taking place on such 
a broad scale with an entire nation. And it is not just 
cultural. It is criminal. We should stand up to that at every 
chance we possibly get.
    Secretary Inderfurth, thank you very much. We want to keep 
working with you on this. I sense from some of your comments 
that your policy is searching what it is that we can do. This 
is a country that we have limited contacts and dealings with. 
It is therefore then limited and difficult for us as to how do 
we press it? And we should not recognize the Taliban regime. 
But we do need to get pressure to bear on them to deal with 
some of these very big issues, women's rights, terrorism, 
exported drugs that are effecting the entire world.
    And I will look forward to making some suggestions to you. 
I think the next panel of witnesses have some specific items 
that they want to put forward as well. So I hope that your 
staff or somebody could also provide some of those items and 
suggestions to you too.
    Thank you for joining us. We will be in recess. It will 
probably take us about 15 minutes to get over to the floor, 
vote and back. And then we will proceed with the second panel 
at that time.
    [Whereupon, a brief recess was taken.]
    Senator Brownback. We will reconvene the hearing. We have 
the second panel that we will have testify. My apologies to 
everybody for the recess, but we had votes on the floor. The 
panelists are the Honorable Peter Tomsen. He is a professor of 
International Studies and Programs, University of Nebraska, 
Omaha, an expert on Afghanistan. We are delighted to have the 
Honorable Mr. Tomsen here.
    We have Mr. Hamid Karzai, Afghan Tribal Leader. And also I 
think representing the overall Rome group here as well. And Dr. 
Zieba Shorish-Shamley, executive director, Women's Alliance for 
Peace and Human Rights in Afghanistan who has been here before 
and I am delighted to have you back.
    I look forward to hearing your testimony. I think Senator 
Boxer may be joining us in a little bit as well. And 
specifically, your suggestions as to what has occurred to U.S. 
policy in Afghanistan. More importantly, what should we be 
doing now to alter that policy? That would be the thing that 
would be of most interest to myself and I think other members 
as well. Mr. Tomsen, the floor is yours.

 STATEMENT OF PETER TOMSEN, PROFESSOR OF INTERNATIONAL STUDIES 
        AND PROGRAMS, UNIVERSITY OF NEBRASKA, OMAHA, NE

    Mr. Tomsen. Thank you, Mr. Chairman, I wish to thank you 
and your subcommittee for the invitation to testify today. The 
influence of Afghanistan on critical U.S. interest in the 
Central-South Asian region and globally has for far too long 
been underestimated. The current American policy toward 
Afghanistan and the Taliban has not and cannot advance these 
interests. I congratulate you for organizing today's hearing to 
explore a more effective American approach to breaking the 
bloody stalemate in Afghanistan.
    Mr. Chairman, among the countless Afghan parables is one 
that states: ``As long as the root touches the water, there is 
hope.'' Afghans still hope for peace despite their predicament. 
No nation since perhaps the Germans during the devastating 30 
years war have suffered proportionately and continuously such 
death and destruction over decades.
    The extremist network created during the 9-year Afghan-
Soviet war has subjected Afghanistan to another form of tyranny 
every bit as pernicious as the bloody string of Soviet 
supported Communist rulers during the 1980's.
    The Pakistani military's Interservices Intelligence 
Directorate (ISI), Pakistani radical Muslim parties, Saudi and 
other Arab extremists, including Osama bin Laden, and 
Afghanistan's own Islamist elements--Hekmatyar, Rabbani, 
Sayyaf, and the Taliban are examples--have exploited the 
country as a springboard for exporting terrorism, suppressing 
women, drug smuggling and Muslim extremism throughout Eurasia 
from Xinjiang to Chechnya, Kashmir to Karachi.
    Terrorist operations, massive drug production and the ebb 
and flow of fighting in Afghanistan is now accompanied by 
destructive drought which is drying wells, denying moisture to 
crops, and forcing the premature slaughter of livestock. There 
are reports of large-scale locust attacks. Criminal activity 
and banditry in urban and rural areas is on the rise as the 
Taliban grip weakens in Afghanistan. Colombia-style murderous 
narco terrorist syndicates with international tentacles are 
emerging. Afghans, desperate for peace, ask if their nightmare 
will ever end.
    As the Afghan proverb tells, there is hope. Modern history 
records examples of how proud, small nations, particularly 
those with their own history, culture and religion resist 
subjugation. Afghans see their history as a united nation going 
back to the mid-18th century. As practiced, the Afghan national 
identity is a unique, holistic blend of Islam, tribal codes of 
conduct, and Afghan nationalism. It spreads north and south, 
east and west. Afghanistan's moderate Islam rejects the 
Taliban-style radical Deobandi, Wahabbi and Ikhwani influences 
imported from Pakistan, the Persian Gulf, and the Middle East 
as turmoil enveloped the country.
    There are reasons for hope.
    The Taliban is in decline. It will probably be driven from 
Kabul by the end of this year.
    Unlike in the Balkans, no Afghan ethnic group inside 
Afghanistan has separatist aspirations. The Pashtuns do not 
want to join Pakistan, Tajiks likewise prefer their Afghan 
moorings to union with Tajikistan; Afghanistan's Shia 
population has shown no inclination to seek association with 
Iran.
    It is also potentially helpful, Mr. Chairman, that each of 
the permanent members of the U.N. Security Council has an 
interest in seeing a legitimate regime in Kabul, accepted by 
most Afghans, as chosen by Afghans, in an Afghan deliberative 
process not imposed from the outside; a regime which focuses on 
Afghanistan's massive internal economic and social problems; 
one prepared to work with Afghanistan's neighbors and the 
international community to break the utilization of Afghan soil 
by terrorists, to phaseout opium production, restore gender and 
human rights, and reap the substantial economic gains from the 
revival of ancient trade and transport corridors transiting 
Afghanistan. The Taliban fail in all of these categories.
    A stable Afghanistan offering a crossroads for regional and 
global commerce along a sweeping north-south and east-west axis 
would prove an economic boon to each of Afghanistan's neighbors 
in the region, as well as to Afghanistan itself.
    Islamabad would benefit the most. Pakistan cannot transit 
Afghanistan to market its products in Central Asia, the Caspian 
Basin and China while instability persists in Afghanistan.
    Pakistan has legitimate interests in Afghanistan. They do 
not, however, extend to selecting those who rule in Kabul. 
Islamabad's sponsorship of the Taliban will only further 
advance the economic and social decay underway in Pakistan 
itself. Pakistan's continuing support for the Taliban will also 
deepen its political isolation in the region and in the 
international community.
    Neither Pakistani nor Iranian attempts to mediate the 
Afghan dispute can succeed. The period since the Soviet pullout 
is littered with the carcasses of Islamabad peace initiatives 
for Afghanistan. These include the Afghan interim government in 
1988, the 1992 Islamabad Accord, and then the Taliban in the 
mid-1990's. Pakistan has consistently sought to put Afghan 
Muslim extremists in Kabul, much like the Soviets attempted to 
place their own asset, the Afghan Communists, in Kabul. Afghans 
are now thoroughly suspicious of any outside mediation, most 
notably initiatives from Islamabad and Tehran. This cynicism 
extends as well to Moscow and Riyadh.
    Many Afghans also worry that Russian leaders may emulate 
the Soviet era tendency to reach for military and intelligence 
levers in dealing with the complex Afghan issue. In 1979, the 
Soviet Politburo took that path, disregarding the advice of 
many in Soviet foreign policy and think tank positions who were 
knowledgeable about Afghanistan.
    Today, powerful elements of the Russian military and 
intelligence establishment may play a spoiler role by arguing 
against an internationally assisted Afghanistan settlement 
process, favoring instead a climate of confrontation along the 
Amu Darya to buttress Moscow as a ``protector'' of the Central 
Asian states against the Muslim extremist threat from 
Afghanistan.
    Russian stoking of conflict in Moldova and the Caucasus has 
had a similar objective of drawing the former Soviet republics 
back under Russia's control. Conversely, Moscow's cooperation 
in an internationally assisted Afghanistan settlement could be 
an important precedent for further Russian cooperation with the 
West to resolve other conflicts smoldering across Eurasia.
    Mr. Chairman, Afghans have become disillusioned with 
Washington's disengagement from Afghanistan, as the United 
States outsources its policy to Pakistan. This disengagement 
was illustrated again when the State Department recently 
repeated U.S. support for both Pakistani and Iranian settlement 
initiatives on Afghanistan. These initiatives have no chance of 
succeeding. They will be rejected by Afghans as further 
destructive Iranian and Pakistani attempts to champion their 
favored extremist elements in Afghan internal affairs. Ongoing 
Iranian and Pakistani strategic competition in Afghanistan also 
dooms these outside interventions to failure.
    But United States policy toward Afghanistan and the region 
will be critical to the success of an Afghan peace process. The 
principal problem, Mr. Chairman, is that there is not, and has 
not been, an American policy toward Afghanistan since the 1992 
collapse of the Communist regime in Kabul.
    It was only after the 1998 Osama bin Laden-instigated 
bombings of U.S. Embassies in Africa that U.S. policy on 
Afghanistan began to stir. The resultant, single-minded ``get 
Osama bin Laden'' approach, however, has missed the point. 
Seizing one terrorist, however odious, does not address the 
broad and important U.S. interests at stake in Afghanistan.
    A comprehensive American policy is required in order to 
stem international terrorism; reverse soaring narcotics 
production; remove the increasingly dangerous internationally 
Islamic network using Afghanistan as an operational bases; and 
to lay the basis in a positive way for revival of Eurasian 
trade routes through Afghanistan; while helping Afghanistans to 
rebuild its nation after over two decades of Soviet and Islamic 
generated death and destruction.
    Whether it is in this administration or the next one, an 
effective American policy on Afghanistan will need to fit into 
a broader regional policy framework: helping Pakistan out of 
its present mess; defusing Indo-Pakistani tensions; pursuing 
rapproachment with Iran; strenghtening the democratic and 
economic transition process in Russia and Central Asia; 
combating the threat to regional and global stability posed by 
Afghanistan-sourced drugs and terrorism; unleashing the 
regional economic benefits that peace in Afghanistan would 
bring to South Asia, Iran, Russia, China, and the new Central 
Asia republics; and an area for fruitful U.S. cooperation with 
Japan and China.
    What specifically should the United States do?
    A U.S. diplomatic push on Afghanistan should best work 
indirectly through the U.N. Security Council, which has the 
legitimate mandate under the U.N. charter to prevent threats to 
peace and security. The United States could be the sparkplug 
for U.N. Security Council action to convene a major 
international conference to focus exclusively on Afghanistan. 
The main goals of the conference should include a formal treaty 
which would recognize Afghanistan's neutrality and sovereignty, 
and independence, such as was done for Austria in the 1955 
Austrian State Treaty, signed by the Soviet Union and the West. 
The conference and its attendant documents could further:
    Bind outside governments and entities not to provide the 
Afghanistan belligerents with weapons or other war-making 
potential, including aviation fuel.
    Make clear that governments or entities which persist in 
supplying the Afghan beligerants with war-making potential 
would be sanctioned.
    Register pledges of support for Afghanistan's 
reconstruction. The U.N. would coordinate the international 
assistance effort.
    Designate the U.N. Secretary General special envoy as the 
only outside mediator for the Afghan settlement process.
    Prohibit separate, direct mediation or lobbying by foreign 
governments or regional organizations with the separate Afghan 
factions. Instead foreign governments would provide their 
insights directly to the United Nations mediation initiative.
    Provide incentives to discourage Pakistan from shifting its 
support to yet another mix of Afghan extremists in Kabul as the 
Taliban disintegrates.
    On international coordination, active support for a 
Security Council initiative on Afghanistan by Afghanistan's 
neighbors, especially Pakistan, will be essential to its 
success. Positive incentives for Pakistan's cooperation will be 
important to counter internal Pakistani opposition from Muslim 
extremist elements in Pakistani military and political circles. 
Incentives for a constructive Pakistani approach would include 
Pakistan's access to Eurasian markets and trade routes through 
a peaceful Afghanistan. The international conference, which 
would include Pakistan, could also offer Pakistan a share of 
the international assistance which would accompany an Afghan 
settlement.
    Pakistan's reasonable strategic concern about the revival 
of the two front security challenge it experienced for most of 
its post-independence period must also be addressed. 
Islamabad's sponsorship of a radical Islamic government in 
Kabul has geo-political origins with offensive and defensive 
qualities. It is offensive in creating ``Islamic depth'' 
against India; defensive in preventing New Delhi and Moscow 
from once more making Afghanistan the upper lip of a strategic 
vice against Pakistan.
    An international conference on Afghanistan could therefore 
include a declaration patterned on the 1975 Helsinki Accords in 
Europe which would formally recognize the sanctity of 
Afghanistan's pre-Soviet invasion frontiers, including the 
Afghanistan-Pakistan border area. The conference might urge 
that the legitimate regime in Kabul emerging from a settlement 
process work with Pakistan to include a bilateral border 
agreement, thus setting aside the century old Afghan-Pakistani 
controversy on the 1893 Durand line. The conference could 
propose that U.N. or International Court of Justice mediation 
be made available to assist Pakistan-Afghanistan bilateral 
border negotiations.
    An international conference could be the vehicle to commit 
India, Russia, Iran, as well as Pakistan to a broader, 
authoritative international undertaking to restrain themselves 
from manipulating Afghanistan to serve their separate strategic 
goals in Central Asia. An international understanding 
respecting Afghanistan's neutrality, sovereignty and frontiers 
could be a form of collective security for all, bolstering 
Afghanistan's stability at the center of the Eurasian land 
mass.
    No single major power would achieve one hundred percent of 
its goals, as the West and the Soviet Union accepted when they 
removed their occupation forces from Austria in 1955. All would 
benefit from the abandoning of the zero-sum geo-political 
competition by outside powers in Afghanistan that has led to 
the current destructive stalemate in which none of 
Afghanistan's competing neighbors can succeed in maintaining 
its favored Afghan in Kabul.
    All will continue to suffer from the stalemate of, death, 
drugs, destruction, and chaos on their borders. A forceful 
American and United Nations Security Council Initiative from 
outside the region could break the impasse. As the noted 
Pakistani specialist on Afghanistan, respected journalist, 
Ahmed Rashid, has written in Foreign Affairs, ``Until the 
United States demonstrates that it has the determination to 
mobilize an international effort for ending outside 
interference, Afghanistan's chaos will only spread.''
    An international conference projecting international 
support for Afghanistan's neutrality and sovereignty would give 
impetus to the internal Afghan settlement process which has 
already begun to generate progress as the Taliban fades. The 
Taliban's decline is assisting this welcome trend. Tangible as 
well as intangible elements are steadily eroding the Taliban's 
base of support, including in the southern Pashtun belt.
    Senator Brownback. Mr. Tomsen, if we could summarize maybe 
the rest of that because I want to make sure we get to these 
other witnesses and have a chance for some questioning on it. I 
appreciate your in-depth thoughts on it. And we will make sure 
to have all of that in the record. But I want to make sure we 
have some time too for other witnesses.
    Mr. Tomsen. OK. In sum, Mr. Chairman, my own judgment is 
that it is useless to expect good results from negotiations 
with the rigid, orthodox, anti-Western Taliban. They are self-
destructing. We should follow this prong of an international 
conference to work with the outer circle of powers and then 
support the peace initiatives internally.
    If I may just present here a section on what can Congress 
do and then terminate my testimony.
    Congress can do a lot. We cannot expect an effective 
foreign policy on Afghanistan before this administration ends. 
Whatever party wins in November, it will take at least a year 
for the next administration to establish the essential 
analytical framework and policy approach needed to satisfy U.S. 
interest in Afghanistan and the region.
    In the mid-1980's, Congress seized the initiative and 
legislated a more invigorated American approach on Afghanistan. 
You are really the only hope for policy change on Afghanistan 
at this time as we proceed from one administration to the next.
    My suggestion is two-fold. As you did in 1988, also a 
Presidential election year, adopt legislation re-establishing 
the position of an American Special Envoy on Afghanistan with 
the rank of Ambassador. A high level Special Envoy specifically 
dealing with Afghanistan would reverse the image of American 
disengagement from Afghanistan. It would compensate for the 
lack of an American Ambassador in Kabul. The envoy would 
coordinate a fresh American approach on Afghanistan, working 
interagency, with the Congress, Afghans and foreign 
governments.
    The second suggestion, Mr. Chairman, is to adopt 
legislation reestablishing a direct United States AID 
humanitarian assistance program for Afghanistan. The level 
could began at $10 million or even less. It would be managed 
from USAID offices in Tashkent, Uzbekisan, as well as from 
Peshawar, Pakistan to ensure that American aid goes to non-
Taliban areas. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Tomsen follows:]

                Prepared Statement of Hon. Peter Tomsen

                        UNTYING THE AFGHAN KNOT
    Mr. Chairman, I wish to thank you and your subcommittee for the 
invitation to testify before you today. The influence of Afghanistan on 
critical United States interests in the Central-South Asian region and 
globally has for too long been underestimated. The current American 
policy toward Afghanistan and the Taliban has not and cannot advance 
these interests. I congratulate you for organizing today's hearing to 
explore a more effective American approach to breaking the bloody 
stalemate in Afghanistan.
    During my thirty-three years in the American Foreign Service, 
preceded by two years as a Peace Corps Volunteer in Nepal, I served as 
a United States Ambassador to a country--Armenia--and as an American 
Ambassador and Presidential Special Envoy to a cause--the quest for 
peace and freedom in Afghanistan. Now retired, I retain a deep interest 
in that cause.
    Mr. Chairman, among the countless Afghan parables is one that 
states: ``As long as the root touches the water, there is hope.'' 
Afghans still hope for peace, despite their predicament. No nation 
since perhaps the Germans during the devastating Thirty Years War have 
suffered proportionally and continuously such death and destruction 
over decades. The Soviet invasion and occupation killed two million 
Afghans, ripped apart the delicate socio-political fabric and 
traditional base of Afghanistan, shattered the economic structure, 
sewed over ten million mines, drove five million Afghans into Pakistan 
and Iran, destroyed much of the centuries-old underground irrigation 
system and created the Muslim extremist foothold in Afghanistan which 
has fueled the second round of warfare in Afghanistan continuing today.
    The extremist network created during the nine year Afghan-Soviet 
war has subjected Afghanistan to another form of tyranny every bit as 
pernicious as the bloody string of Soviet-supported communist rulers 
during the 1980's. The Pakistani military's Interservices Intelligence 
Directorate (ISI), Pakistani radical Muslim parties, Saudi and other 
Arab extremists, including Osama bin Ladin, and Afghanistan's own 
Islamist elements (Hekmatyar, Rabbani, Sayyaf, and the Taliban) have 
exploited the country as a springboard for exporting terrorism, drugs 
and Muslim extremism through Eurasia, from Xinjiang to Chechnya, 
Kashmir to Karachi.
    Tribal leaders in Pakistan's Northwest Frontier Province earlier 
this year warned the Pakistani Tehrik-e-Taliban (``Taliban Movement'') 
against forcing Talibanization in their tribal areas. Sunni fanatics 
recently assassinated fourteen more Shia in Karachi. Uzbek customs 
officials seized a shipment of radioactive material in May. Press 
reports indicate the shipment was destined for Taliban-held areas in 
Afghanistan where it would be converted into powerful radiation bombs 
for use by international terrorists based in Afghanistan.
    Terrorist operations, massive drug production and the ebb and flow 
of fighting in Afghanistan is now accompanied by destructive drought 
which is drying wells, denying moisture to crops and forcing the 
premature slaughter of livestock. There are reports of large-scale 
locust attacks. Criminal activity and banditry in urban and rural areas 
is on the rise as the Taliban grip weakens in Afghanistan. Colombia-
style murderous, narco-terrorist syndicates with international 
tentacles are emerging. Afghans, desperate for peace, ask if their 
nightmare will ever end.
    As the Afghan proverb tells, however, there is hope. Modern history 
records examples of how proud, small nations, particularly those with 
their own history, culture and religion, resist subjugation. Afghans 
see their history as a united nation going back to the mid-eighteenth 
century. As practiced, the Afghan national identity is a unique, 
holistic blend of Islam, tribal codes of conduct, and Afghan 
nationalism, north and south, east and west. Afghanistan's moderate 
Islam rejects the Taliban-style radical Deobandi, Wahabbi, and Ikhwani 
influences imported from Pakistan, the Persian Gulf, and the Middle 
East as turmoil enveloped the country.
    There are other reasons for hope.
    The Taliban is in decline. It will probably be driven from Kabul by 
the end of the year.
    Unlike in the Balkans, no Afghan ethnic group inside Afghanistan 
has separatist aspirations. Pashtuns do not want to join Pakistan; 
Tajiks likewise prefer their Afghan moorings to union with Tajikistan; 
Afghanistan's Shia population has shown no inclination to seek 
association with Iran.
    It is also potentially helpful that each of the permanent members 
of the U.N. Security Council has an interest in seeing a legitimate 
regime in Kabul, accepted by most Afghans as chosen by Afghans, in an 
Afghan deliberative process not imposed from the outside; a regime 
which focuses on Afghanistan's massive internal economic problems; one 
prepared to work with Afghanistan's neighbors and the international 
community to break the utilization of Afghan soil by terrorists, to 
phase out opium production, and reap the substantial economic gains 
from the revival of ancient trade and transport corridors transiting 
Afghanistan. The Taliban fail in all of these categories.
    A stable Afghanistan offering a crossroads for regional and global 
commerce along a sweeping north-south and east-west axis would prove an 
economic boon to each of Afghanistan's neighbors in the region, as well 
as to Afghanistan itself.
    Islamabad would benefit the most. Pakistan cannot transit 
Afghanistan to market its products in Central Asia, the Caspian Basin 
and China while instability persists in Afghanistan.
    Pakistan has legitimate interests in Afghanistan. They do not, 
however, extend to selecting those who rule in Kabul. Islamabad's 
sponsorship of the Taliban will only further advance the economic and 
social decay underway in Pakistan itself. Pakistan's continuing support 
for the Taliban will also deepen its political isolation in the region 
and in the international community.

                  AFGHAN VIEWS OF OUTSIDE INTERFERENCE
    Neither Pakistani nor Iranian attempts to mediate the Afghan 
dispute can succeed. The period since the Soviet pullout is littered 
with the carcasses of Islamabad initiated ``peace'' initiatives for 
Afghanistan. These include the Afghan Interim Government in 1988, the 
1992 Islamabad Accord, and then the Taliban in the mid-1990's. Pakistan 
has consistently sought to put Afghan Muslim extremists in Kabul, much 
like the Soviets attempted to place their own asset, the Afghan 
communists, in Kabul. Afghans are now thoroughly suspicious of any 
outside mediation, most notably initiatives from Islamabad and Tehran. 
Their cynicism extends as well to Moscow and Riyadh.
    Many Afghans also worry that Russian leaders may emulate the Soviet 
era tendency to reach for military and intelligence levers in dealing 
with the complex Afghan issue. In 1979, the Soviet Politburo took that 
path, disregarding the advice of many in Soviet foreign policy and 
think tank positions who were knowledgeable about Afghanistan. Today, 
powerful elements in the Russian military and intelligence 
establishment may play a spoiler role by arguing against an 
internationally assisted Afghanistan settlement process, favoring 
instead a climate of confrontation along the Amu Darya to buttress 
Moscow as a ``protector'' of the Central Asian states against the 
Muslim extremist threat from Afghanistan. Russian stoking of conflict 
in Moldova and the Caucasus has had a similar objective of drawing the 
former Soviet republics back under Russia's control. Conversely, 
Moscow's cooperation in an internationally assisted Afghanistan 
settlement could be an important precedent for further Russian-Western 
collaboration to resolve other conflicts smoldering across Eurasia.
    Afghans have become disillusioned with Washington's disengagement 
from Afghanistan, as the United States sources out its policy to 
others. This disengagement was illustrated again when the State 
Department repeated U.S. support for Pakistani and Iranian settlement 
initiatives for Afghanistan. These initiatives have no chance of 
succeeding. They will be rejected by Afghans as further destructive 
Iranian and Pakistani attempts to champion their favored extremist 
elements in Afghan internal affairs. Ongoing Iranian and Pakistani 
strategic competition in Afghanistan also dooms these outside 
interventions to failure.

                FORMULATING AN EFFECTIVE AMERICAN POLICY
    United States policy toward Afghanistan and the region will be 
critical to the success of an Afghan peace process. The principal 
problem is that there is not, and has not been, an American policy 
toward Afghanistan since the 1992 collapse of the communist regime in 
Kabul. It was only after the 1998 Osama bin Ladin-instigated bombings 
of U.S. embassies in Africa that U.S. policy on Afghanistan began to 
stir. The resultant, single-minded ``get bin Ladin'' approach, however, 
has missed the point. Seizing one terrorist, however odious, does not 
address the broad and important U.S. interests at stake in Afghanistan. 
A comprehensive American policy is required in order to: stem 
international terrorism; reverse soaring Afghan narcotics production; 
remove the increasingly dangerous international Islamist network using 
Afghanistan as an operational base; lay the basis for revival of 
Eurasian trade routes through Afghanistan; and help Afghans rebuild 
their nation after over two decades of Soviet and Islamist generated 
death and destruction.
    The Clinton administration over the past seven years has squandered 
the opportunity to end the Afghan conflict. Washington's vapid approach 
has assumed that there is no cost to American disengagement. But there 
are costs. They are already high. They will only increase should 
American inaction continue.
    President Clinton, during his April South Asia visit, reflected the 
lack of an effective United States policy on Afghanistan. He mentioned 
Afghanistan in public but once, and that was in the form of another 
``get bin Ladin'' reference during his meeting with Pakistan Chief 
Executive Musharraf. President Clinton's trip could have been used to 
propose a major initiative on Afghanistan, laying out a broad U.S. 
policy responding to the multiple U.S. interests in Afghanistan.
    Whether it is in this Administration or the next one, an effective 
American policy on Afghanistan will need to fit into a broader regional 
policy framework: helping Pakistan out of its present mess; defusing 
Indo-Pakistani tensions; pursuing rapprochement with Iran; 
strengthening the democratic and economic transition process in Russia 
and Central Asia; combating the threat to regional and global stability 
posed by Afghanistan-sourced drugs and terrorism; unleashing the 
regional economic benefits that peace in Afghanistan would bring to 
South Asia, Iran, Russia, China, and the new Central Asian Republics; 
and creating an area for fruitful U.S. cooperation with Japan and 
China.
    A U.S. diplomatic push on Afghanistan should best work indirectly 
through the U.N. Security Council, which has the legitimate mandate 
under the U.N. Charter to prevent threats to peace and security. The 
U.S. could be the sparkplug for U.N. Security Council action to convene 
a major international conference to focus exclusively on Afghanistan. 
The main goals of the conference should include a formal treaty 
formally recognizing Afghanistan's neutrality and sovereignty, such as 
was done for Austria in the 1955 Austrian State Treaty. The conference 
and its attendant documents could further:

  <bullet> Bind outside governments and entities not to provide the 
        Afghan belligerents with weapons or other war-making material, 
        including aviation fuel.

  <bullet> Make clear that governments or entities which persist in 
        supplying the Afghan belligerents with war-making potential 
        would be sanctioned.

  <bullet> Register pledges of support for Afghanistan's 
        reconstruction. The U.N. would coordinate the international 
        assistance effort.

  <bullet> Designate the U.N. Secretary General's Special Envoy on 
        Afghanistan as the only outside mediator for the Afghan 
        settlement processes.

  <bullet> Prohibit separate, direct mediation or lobbying by foreign 
        governments or regional organizations with the Afghan factions. 
        Instead, foreign governments would provide their insights 
        directly to the United Nations mediation initiative.

  <bullet> Provide incentives to discourage Pakistan from shifting its 
        support to yet another mix of Afghan extremists in Kabul as the 
        Taliban disintegrate.

                       INTERNATIONAL COORDINATION
    Active support for a Security Council initiative on Afghanistan by 
Afghanistan's neighbors, especially Pakistan, will be essential to its 
success. Positive incentives for Pakistan's cooperation will be 
important to counter internal Pakistani opposition from Muslim 
extremist elements in Pakistani military and political circles. 
Incentives for a constructive Pakistani approach would include 
Pakistan's desperately needed access to Eurasian markets and trade 
routes through a peaceful Afghanistan. The international conference 
could also offer Pakistan a share of the international assistance which 
would accompany an Afghanistan settlement.
    Pakistan's reasonable strategic concern about the revival of the 
two front security challenge it experienced for most of its post-
independence period must also be addressed. Islamabad's sponsorship of 
a radical Islamic government in Kabul has geo-political origins with 
offensive and defensive qualities--offensive in creating ``Islamic 
depth'' against India; defensive in preventing New Delhi and Moscow 
from once more making Afghanistan the upper lip of a strategic vise on 
Pakistan.
    An international conference on Afghanistan could include a 
declaration patterned on the 1975 Helsinki Accords formally recognizing 
the sanctity of Afghanistan's pre-Soviet invasion frontiers, including 
the Afghanistan-Pakistan border area. The conference might urge that 
the legitimate regime in Kabul emerging from a settlement process work 
with Pakistan to include a bilateral border agreement, thus setting 
aside the century-old controversy over the 1893 Durand Line. The 
conference could propose that U.N. or International Court of Justice 
mediation be made available to assist Pakistan-Afghanistan bilateral 
border negotiations.
    An international conference could be the vehicle to commit india, 
Russia, Iran, as well as Pakistan to a broader, authoritative 
international undertaking to restrain themselves from manipulating 
Afghanistan to serve their separate strategic goals in Central Asia. An 
international understanding respecting Afghanistan's neutrality, 
sovereignty and frontiers would be a form of collective security 
bolstering Afghan stability at the center of the Eurasian land mass. No 
single major power would achieve one hundred percent of its goals, as 
the West and Soviet Union accepted when they removed their occupation 
forces from Austria in 1955. All would benefit from the abandoning of 
the zero-sum geo-political competition by outside powers in 
Afghanistan, that has led to the current destructive stalemate in which 
none of Afghanistan's competing neighbors can succeed in maintaining 
its favored Afghan in Kabul. All will continue to suffer from the 
stalemate of death, destruction, and chaos on their borders. A forceful 
American and United Nations Security Council Initiative from outside 
the region could break the impasse. As the noted Pakistani specialist 
on Afghanistan, respected journalist Ahmed Rashid has written, ``Until 
the United States demonstrates that it has the determination to 
mobilize an international effort for ending outside interference, 
Afghanistan's chaos will only spread.''

               GOOD TIMING FOR DOMESTIC AFGHAN AGREEMENT
    An international conference projecting international support for 
Afghanistan's neutrality and sovereignty would give impetus to the 
internal Afghan settlement process which has begun to generate 
momentum. The Taliban's decline is assisting this welcome trend. 
Intangible as well as tangible elements are steadily eroding the 
Taliban's base of support, including in the southern Pashtun belt. A 
successful international conference could indirectly assist Afghans to 
fill the vacuum left by the Taliban's demise, discourage Pakistan from 
sponsoring yet another radical Muslim option to replace the Taliban, 
provide ``cover'' to Pakistan's leaders to end Islamabad's failed 
course in Afghanistan and regain its image as a constructive partner in 
the international community.
    The most likely immediate scenario following the breakup of the 
Taliban would be the re-emergence of local military commanders, tribal 
and clan leaders in previous Taliban areas. Some combination, perhaps 
including former Taliban elements, would then take over Kabul. A 
critical issue at this point would be whether those controlling Kabul 
will be ready to support a genuine Afghan political settlement process.
    The Northern Alliance (or United Front) leader Ahmed Shah Masood's 
actions would be important while Taliban control in the southern 
Pashtun belt continues to weaken. By pushing toward Kabul, he would re-
unite Pashtun opposition against himself. More months if not years of 
warfare would follow. Masood would again find himself constantly 
beleaguered, faced with enemies from the east, south, and west seeking 
to dislodge him from the capital. He could instead announce his support 
for a peace process, representing all Afghan groups, while eschewing 
unilateral military advantage. In addition to Masood, other major 
commanders in Afghanistan, Pashtun and non-Pashtuns, would need to join 
in backing the political process, restraining themselves militarily.
    The great majority of Afghans have concluded that a peace process 
must include the convening of a large gathering of Afghans, which 
fairly represents Afghanistan's major groups and regions. Such 
meetings--termed Loya Jirgas or ``Grand Assemblies'' in Afghan 
history--have chosen leaders and set a direction for the country before 
in Afghan history. The Loya Jirga movement revolving around Ex-monarch 
Zahir Shah is one--but not the only--possible catalyst to this end. The 
new group in Kabul replacing the Taliban could turn out to be a 
supporter of a representative Loya Jirga if it opts for a settlement 
process and resists the temptation to become the next transitory ruler 
in Kabul.
    In sum, Mr. Chairman, my judgement is that it is useless to expect 
good results from negotiations with the rigid, orthodox, anti-western 
Taliban. The Taliban are active partners in the international extremist 
network threatening the region and beyond. We should proceed in a way 
that accelerates the Taliban's deteriorating position in Afghanistan. 
Our policy should discreetly assist the intra-Afghan dialogue to create 
a legitimate non-Taliban regime in Afghanistan, missing since the early 
1970's. That regime, I believe, could lead Afghanistan back to playing 
a respectable role in the international community, as it did before the 
Soviet invasion. Diplomatically, the United States should help put 
together an international arrangement which will assist the return to 
peace in Afghanistan and ensure stability in central Eurasia for the 
upcoming decades.
    Afghans will benefit the most from the resulting chance for peace. 
So will all of Afghanistan's neighbors and the broader Central-South 
Asian region generally.

                         WHAT CAN CONGRESS DO?
    A lot. We cannot expect an effective foreign policy on Afghanistan 
before this Administration ends. Whichever party wins in November, it 
will take at least a year for the next administration to establish the 
essential analytical framework and policy approach needed to satisfy 
U.S. interests in Afghanistan and the region. In the mid-1980's 
Congress seized the initiative and legislated a more invigorated 
American approach on Afghanistan. You are really the only hope for 
policy change as we proceed from one administration to the next.
    My suggestion is that you consider legislation realizing the 
following objectives:

  <bullet> As you did in 1988, a presidential election year, adopt 
        legislation re-establishing the position of an American Special 
        Envoy on Afghanistan with the rank of Ambassador. A high level 
        Special Envoy specifically dealing with Afghanistan would 
        reverse the image of American disengagement from Afghanistan. 
        It will compensate for the lack of an American ambassador in 
        Kabul. The envoy would coordinate a fresh American approach on 
        Afghanistan, working inter-agency, with the Congress, Afghans 
        and foreign governments.

  <bullet> Adopt legislation re-establishing a direct United States 
        humanitarian assistance program for Afghanistan. The level 
        could begin at ten million dollars or even less. It should be 
        managed from USAID offices in Tashkent, Uzbekistan, as well as 
        from Peshawar, Pakistan to ensure that American aid goes to 
        non-Taliban areas.

    Mr. Chairman, these two steps would project to Afghans, as well as 
to outside powers involved in Afghanistan, that the United States is 
finally giving a higher priority to Afghanistan through an effective 
policy. As in the mid-1980's, you will face resistance from the 
bureaucracy in passing legislation on these two issues. As we go from 
this administration to the next one, however, congressional action is 
really the only alternative for shifting our policy to a course that 
will generate tangible results for American interests in Afghanistan 
and the region.

    Senator Brownback. Thank you for that thoughtful comment 
and set of items that Congress could do as well. Mr. Karzai, 
thank you, very much for being with us.

STATEMENT OF MR. HAMID KARZAI, AFGHAN TRIBAL LEADER, GLENWOOD, 
                               MD

    Mr. Karzai. Thank you, very much, sir. Mr. Chairman, thank 
you for allowing me to appear before you. My testimony will 
take the following format:
    A brief observation about the traditional politics of 
Afghanistan.
    Observations about what brought Afghanistan to this point.
    The prospects for peace.
    Traditional body politics of Afghanistan. Historically the 
evolution and stability of the Afghan nation and its 
independence have rested upon the sanctity of the three 
dominant pillars of the Afghan national identity. These three 
pillars are: Islam, national unity, and traditional tribal 
social structure.
    Islam in Afghanistan has always been faith-based, above 
politics and the daily conflicts and burdens of life. A 
tolerant and moderate of Islamic way of life provides a 
comprehensive faith-based moral quote and guidance for the 
Afghan society as well as for the individual. Religious and 
spiritual leaders have never in the past entertained the desire 
to control government, but enjoyed privilege to influence 
government policies.
    National unity. Coexistence of all Afghan groups in the 
framework of national unity have always been a prerequisite and 
in the forefront of achieving and protecting the Afghan 
independence. The maintenance and enhancement of the Afghan 
national unity was neither the work of politics nor government, 
but has been rather the work of Afghan people and individuals 
to cooperate and thus peacefully coexist as one nation.
    Traditional social structure. The traditional and tribal 
value structure perhaps is the best guide as to how the Afghan 
society and individual have resisted radicalism and 
totalitarianism of both right and left since the Communist coup 
of 1978. The tribal value structure enumerated below can also 
provide the best comparison between the moderate temperament of 
the Afghan society and communism and extremism that have been 
imposed on us since 1978. I am not going to detail what they 
are.
    It is the presence, cooperation and coexistence of these 
three pillars in our history that shaped the Afghan nation and 
its identity.
    For me the mother of all evils in Afghanistan was the 
Communist coup of 1978 and the subsequent Soviet invasion of 
our country. But allow me to tell you what else happened to 
bring Afghanistan to this point.
    Mr. Chairman, I joined the Afghan resistance against the 
Soviet invasion in 1983. I was 25 then. And ever since, like 
many of my compatriots, I am still struggling for the Afghan 
right to self-determination to bring durable peace and 
stability to our country. For 22 years, war and destruction has 
uprooted the Afghan society, socially, politically, 
economically, and emotionally.
    Our economy is in ruins. Our people are pushed into 
destitution and despair. Our land is turned into a training 
camp for terrorists, gun runners, drug dealers and criminals. 
Our agriculture is destroyed because of land mines. Worst of 
all, Afghans are still dying in a foreign imposed war.
    Who is responsible for all of this? Afghans? Mr. Chairman, 
no. The outsiders? Yes.
    Before the Soviet invasion of 1979, Afghanistan was among 
the most peaceful countries in the world. Probably one of the 
most peaceful countries in the world. The economy was growing. 
The social and economic infrastructure was improving. And 
cooperation with the traditional leadership, a fairly well-
educated class was increasingly participating in local and 
national politics, in the developmental processes and in 
building the civil society sector.
    We had freedom of the press and freedom of association with 
an independent judiciary. The national and provincial 
authorities did not intervene in local affairs. Local leaders 
and civil society were allowed to settle issues and adjudicate 
disputs in accordance with our traditional and social values.
    Afghanistan, Mr. Chairman, was not a rich or developed 
country. However, its people lived in peace and with dignity as 
Afghans and as members of the international community.
    Disruption began when the former Soviet Union tried to 
superimpose communism on our society by trying to weaken our 
traditional social fabric and institutions. The Soviets and 
their Communist allies, undertook a violent and revolutionary 
approach to turn the Afghan society and the Afghan world 
outlook upside down. They embarked on eliminating the 
traditional leadership and the educated. They tampered with our 
faith.
    Unfortunately, after the Soviet pullout from Afghanistan, 
the neighboring countries that were the most supportive of our 
Jihad qualitatively adopted the same radical approach and 
social experimentation to further uproot and destabilize the 
Afghan society.
    As you know, Mr. Chairman, of the countries that supported 
our Jihad, Iran and Pakistan share borders with us. They 
received millions of refugees for which we remain very 
grateful. We are especially grateful to the people of Pakistan 
who treated our refugees with warmth and hospitality.
    But it was always these two countries that interfered the 
most in our internal affairs during the years of Jihad and most 
importantly after the Soviet withdrawal. Both chose to 
implement and support extremism in Afghanistan. Iran did it to 
promote its ideological and revolutionary interests. Pakistan 
interfered to gain strategic depth.
    Thus, after the Soviet withdrawal continuing until today, 
Pakistan's intervention in Afghanistan remains the most 
intensive and systematic. This has been done by persistent 
massive support extremism to undermine the role of the educated 
experienced bureaucrats, the patriotic, and traditional 
leadership of Afghanistan.
    Systematic efforts are still going on to undermine our 
national unity and the traditional social-political foundation 
of the country. The presence of terrorist training camps and 
the use of our soil by militant groups are the result of this 
ongoing interference and the consequences of neglect by the 
West and in particular by the United States.
    The Taliban emerged when Afghans were desperately looking 
for a savior. Their emergence was supported by the majority of 
the Afghan people hoping that the Taliban equipped with good 
and honest credentials during the years of Jihad would mobilize 
all Afghans to end the bloodshed and would bring the much-
needed peace and stability.
    I was among the first to actively support the Taliban 
movement. I personally knew and worked with the majority of the 
leadership during the entire period of Jihad. They were neither 
radical nor against Afghan values and culture. They entertained 
no ambition to hold onto political power nor to remain involved 
in politics.
    Thus, my knowledge of and experience with the Afghan 
Taliban makes it very clear to me that the presence of 
militancy and terrorism in Afghanistan are not the product of 
Afghans, but rather the product of non-Afghans who have come to 
our country in disguise to appear as Afghans and as Taliban.
    While the majority of these non-Afghan militant elements 
come from Pakistan, a substantial number are also from other 
countries. Some of them are ideological zealots. Some are 
mercenaries and some belong to other institutions. The majority 
is sponsored by government agencies and extremist organizations 
like Sepah-ie-Sahaba of Pakistan, Harakat-ul-mujahedeen, et 
cetera.
    Our people do not and did not invite these extremist 
militant forces to our country. Though they may have some 
Taliban collaborators. Just like the Soviets were not invited 
by our people to invade us in the name of invitation by their 
Communist collaborators.
    But there is not much that the people of Afghanistan can do 
to remove foreign military presence and the training camps 
without a proper and strong international action to help 
Afghans regain self-determination and sovereignty over the 
Afghan territory and to take its rightful place alongside other 
nations of the international community.
    The United States bombed terrorist bases in Afghanistan in 
1998. The Government of Russia recently threatened to bomb 
these bases. Bombings or the threat of bombing will not remove 
terrorist's bases from Afghanistan. Such actions will only add 
to the problems and prolong the suffering of our people and 
worst of all solidify the presence of terrorist groups.
    I believe that Afghanistan under the prevailing 
circumstances is dangerous to itself, dangerous to the 
stability of the region and dangerous to the accepted 
international norms and behavior. On the other hand, peace and 
stability in the context of a sovereign Afghanistan--I 
underline sovereign Afghanistan, Mr. Chairman, here repeatedly 
so as to make a point.
    On the other hand, peace and stability in the context of a 
sovereign Afghanistan is beneficial to economic and political 
stability of the whole region, most of all to Pakistan, Iran 
and our other neighbors. It is here that all Afghans sincerely 
believe that the international community, but particularly the 
United States and Western Europe, have the capability to 
intervene and put pressure on our neighbors, especially on 
Pakistan. The United States and its allies on a larger scale 
did precisely that in Kuwait.
    Stability and sovereignty of Afghanistan can only be 
achieved in the historical national decisionmaking process of 
Loya Jirga which is the Grand Council of the Afghan people. 
Loya Jirga is the meeting of representative, effective and 
prominent Afghans at any given time.
    Senator Brownback. We will put your whole statement in the 
record. So if there are places that you could--summarize in 
particular what we should be doing now or the administration.
    Mr. Karzai. Exactly. I am coming to that. The Afghans 
expect precisely the following. That foreign interference and 
foreign incursions on the soil of Afghanistan must stop. And 
that the United States can act effectively to do this. That the 
people of Afghanistan believe that the United States neglected 
Afghanistan after the Soviet withdrawal. That it is only with 
the help of a strong and powerful country like the United 
States and other major powers that such interference can cease 
in Afghanistan.
    That only then can an intra-Afghan government take place. 
Without interference in Afghan, the Afghans will not be able to 
get together and form a government of their own.
    In this regard and with regard to the support for the 
forces of Loya Jirga, the Congress of the United States of 
America which is a body of the people of America, can take the 
most effective action to support a body again which is a 
representative body of the people of Afghanistan, Loya Jirga.
    Finally, I would like to use this august forum of the 
representatives of the people of the United States to assure 
our neighbors that the people of Afghanistan are their friends 
and wish to have the best mutually beneficial relations with 
all the neighboring countries and the region. That any 
government that emerges from the will of the Afghan people will 
not be a threat to the legitimate interests of Pakistan or any 
other country for that matter. The world should expect nothing 
more or nothing less from a free and stable Afghanistan.
    I call upon the international community and particularly 
upon the Government of the United States to look at Afghanistan 
from the perspective of Afghanistan, and not that of its 
neighbors which has been happening so far. And that the time to 
watch is over and the responsibility to act is long overdue. 
Further delay will dramatically increase the political and 
economic cost of the resolution of the conflict in Afghanistan 
and the region.
    With regard to specifics, the United States can encourage 
the U.N. Security Council to adopt effective measures, to have 
a cease-fire in Afghanistan and to bring about an arms embargo.
    The United States can take strong action to support Loya 
Jirga the way I elaborated further and to work with the United 
Nations to adopt Loya Jirga as the best means toward the 
resolution of the Afghan problem.
    And last and most important of all, Mr. Chairman, 
Afghanistan is suffering a famine caused by years of drought. 
The people of Afghanistan at this time need the greatest 
international assistance, especially in food. We would be very 
grateful if the Congress of the United States would do 
something strong and effective to alleviate the suffering of 
our people. Thank you.
    [The prepared statement of Mr. Karzai follows:]

                   Prepared Statement of Hamid Karzai

    Mr. Chairman, Senator Brownback, Ranking Member, Senator Wellstone 
and honorable members of the committee.
    Thank you for allowing me to appear before you. My testimony before 
you will take the following format:

  <bullet> A brief observation about the traditional body politics of 
        Afghanistan

  <bullet> My observation about what brought Afghanistan to this point

  <bullet> The prospects for solution


                TRADITIONAL BODY POLITICS OF AFGHANISTAN
    Historically the evolution and stability of the Afghan nation and 
its independence have rested upon the sanctity of the three dominant 
pillars of the Afghan national identity. These three pillars are:
Islam
    Islam.--Islam in Afghanistan has always been faith based, above 
politics, the daily conflicts and burdens of life. A tolerant and 
moderate Islamic way of life provides a comprehensive faith based moral 
code and guidance for the Afghan society as well as for the Afghan 
individual. Religious and spiritual leaders never in the past 
entertained the desire to control government, but enjoyed privilege to 
influence government policies.
Ethnic groups within the framework of national unity
    National Unity.--Ethnic groups in the framework of national unity 
have always been a prerequisite and in the forefront of achieving and 
protecting the Afghan independence. The maintenance and enhancement of 
the Afghan national unity was neither the work of politics nor 
government, but has been rather the work of Afghan people and 
individuals to cooperate and thus peacefully coexist as one nation.
Traditional and tribal social structure
    Traditional and Tribal Social Structure.--The traditional and 
tribal value structure perhaps is the best guide as to how the Afghan 
society and individual have resisted radicalism and totalitarianism of 
both right and left since the Communist coup of 1978. The tribal value 
structure numerated below can also provide the best comparison between 
the moderate temperament of the Afghan society and communism, and 
extremism that have been imposed on us since 1978.
    1. A tolerant and moderate Islamic faith versus Communism and 
extremism.
    2. Ownership and Private property with Islamic and Tribal sanctity 
based on full potential and prerogative to open commerce and free 
enterprise economics versus communal property and controlled economy.
    3. Individualism versus totalitarianism.
    4. Patriotism versus ideological politics without borders.
    5. Social and political decision making and conflict resolution by 
consensus building and mediation (Jirgas) versus violence and 
domination.
    It is the subtle working presence, cooperation and co-existence of 
these three pillars in our history that shape the Afghan nation and its 
identity.
    The Afghan national politics must harmonize with the above three 
dominant pillars of the Afghan National Identity or it is intolerably 
discordant with the Afghan nation. That is what we have been having in 
Afghanistan for the last twenty plus years.
    What brought us to this point? For me the mother of all evils in 
Afghanistan was the Communist coup of 1978 and the subsequent Soviet 
invasion of our country. But allow me to tell you what else happened to 
bring Afghanistan to this point:
    I joined the Afghan resistance against the Soviet invasion in 1983. 
I was 25 years old then and ever since like many of my compatriots I am 
still struggling for the Afghan right to self-determination, to bring 
durable peace and stability to our country. For 22 years, war and 
destruction has uprooted the Afghan society, socially, politically, 
economically, and emotionally. Our economy is in ruin and our people 
are pushed into destitute and despair. Our land is turned into a 
training camp for terrorists, gunrunners, drug dealers and criminals. 
Our agriculture is destroyed because of land mines. Worst of all, 
Afghans are still dying in a foreign imposed war.
    Who is responsible for all of this? Afghans? No. The outsiders? 
Yes.
    Before the Communist coup of 1978 and the subsequent Soviet 
invasion in 1979, Afghanistan was among the most peaceful countries in 
the world. The economy was growing; the social and economic 
infrastructure was improving. In cooperation with the traditional 
leadership, a fairly well educated class was increasingly participating 
in local and national politics, in the developmental processes and in 
building the civil society sector. During the period of constitutional 
monarchy until 1973 political power between national and local politics 
was allocated in the framework of parliamentary form of government. We 
had freedom of the press and freedom of association with an independent 
judiciary. The national and provincial authorities did not intervene in 
local affairs. Local leaders and civil society were allowed to settle 
issues and adjudicate disputes in accordance with our traditional and 
social values. Afghanistan was not a rich or developed country, however 
its people lived in peace and with dignity as Afghans and as member of 
the international community.
    Disruption began when the former Soviet Union tried to superimpose 
communism on our society by trying to weaken our traditional social 
fabric and institutions. They, the Soviets and Communist allies, 
undertook a violent and revolutionary approach to turn the Afghan 
society and the Afghan world outlook upside down. They embarked on 
eliminating the traditional leadership and the educated. They tampered 
with our faith.
    They violated the virtue of individualism to replace it with 
totalitarianism. They attacked our patriotism to replace it with 
ideological internationalism. They attacked our social-political 
processes of decision-making and conflict resolution through consensus 
and mediation by imposing of a zero-sum method of waging violence and 
dominance.
    Unfortunately after the Soviet pullout from Afghanistan the 
neighboring countries that were most supportive of our Jihad 
qualitatively adopted the same radical approach and social 
experimentation to further uproot and destabilize the Afghan society.
    As you know Mr. Chairman, of the countries that supported our 
Jihad, Iran and Pakistan share borders with us. They received millions 
of refugees for which we remain very grateful. We are especially 
grateful to the people of Pakistan who treated our refugees with warmth 
and hospitality.
    But it was always these two countries that interfered the most in 
our internal affairs during the years of Jihad and most importantly 
after the Soviet withdrawal. Both chose to implant and support 
extremism in Afghanistan. Iran did it to promote its ideological and 
revolutionary interests. Pakistan interfered to gain strategic depth 
and was keen to install a puppet government in Afghanistan. Thus after 
the Soviet withdrawal continuing until today, Pakistan's intervention 
in Afghanistan remains the most intensive and systematic. This has been 
done by persistent massive support to extremism to undermine the role 
of the educated, experienced bureaucrats, the patriotic, and 
traditional leadership of Afghanistan. Systematic efforts are still 
going on to undermine our national unity and the traditional social-
political foundation of the country. The presence of terrorist training 
camps and the use of our soil by militant groups are the result of this 
ongoing interference and the consequences of neglect by the West and in 
particular by the United States.
    The Taliban emerged when Afghans were desperately looking for a 
savior. Their emergence was supported by the majority of the Afghan 
people hoping that the Taliban equipped with good and honest 
credentials during the Jihad would mobilize all Afghans to end the 
bloodshed and would bring the much needed peace and stability.
    I was among the first to actively support the Taliban movement. I 
personally knew and worked with the majority of their leadership during 
the entire period of Jihad. They were neither radical nor against 
Afghan values and culture. They entertained no ambition to hold onto 
political power or to remain involved in politics. Thus my knowledge of 
and experience with the Afghan Talibans makes it very clear to me that 
the presence of militancy and terrorism in Afghanistan are not the 
products of Afghans, but rather the products of non-Afghans who have 
come to our country in disguise to appear as Afghans and as Taliban. 
While the majority of these non-Afghans militant elements come from 
Pakistan, a substantial numbers are also from other countries. Some of 
them are ideological zealots, some are mercenaries and some belong to 
other institutions. The majority is sponsored by government agencies 
and extremist organization like Sepah-ie-Sahaba of Pakistan, Harakat-
ul-mujahedeen, et cetera. Our people do not and did not invite these 
extremist militant forces to our country. Though they may have some 
Taliban collaborators, just like the Soviets were not invited by 
Afghans but invaded us in the name of invitation by their Communist 
collaborators.
    But there is not much that the people of Afghanistan can do to 
remove foreign military presence and the training camps without a 
proper and strong international action to help Afghans regain self-
determination and sovereignty over the Afghan territory.
    The United States bombed terrorist bases in Afghanistan in 1998. 
The government of Russia recently threatened to bomb these bases.
    Bombings or the threat of bombing will not remove terrorist's bases 
from Afghanistan. Such actions will only add to problems and prolong 
the suffering of our people and solidify the presence of terrorist 
groups.
    I believe that Afghanistan under the prevailing circumstances is 
dangerous to itself, dangerous to the stability of the region and 
dangerous to the accepted international norms and behavior. On the 
other hand, peace and stability in the context of a sovereign 
Afghanistan is beneficial to economic and political stability of the 
whole region, most of all to Pakistan, Iran and our other neighbors. It 
is here that all Afghans sincerely believe that the international 
community but particularly the United States and Western Europe have 
the capability to intervene and put pressure on our neighbors, 
especially on Pakistan. The United States and it's allies on a larger 
scale did precisely that in Kuwait, the United States and its allies 
did precisely that in Bosnia and Kosovo and it is doing precisely that 
now in the Middle East.
    As we look at the history, the dynamism and composition of the 
Afghan nation, the collective psyche of our people and their love for 
independence, one is forced to see that Afghanistan can never stabilize 
under foreign domination. That it is a liability to all when it is 
pushed into violence and despair and is an asset to all when it is free 
and stable.
    Stability and sovereignty of Afghanistan can only be achieved in 
the historical national decisionmaking process of Loya Jirga (Grand 
National Council). Loya Jirga is the meeting of representative, 
effective and prominent Afghans at any given time. In this regard, 
efforts increased in May of 1997 when some tribal elders and prominent 
Afghans sat together in Islamabad. To mobilize Afghans this process 
quickly emerged into an Intra-Afghan dialogue process that convened a 
series of representative Afghan gatherings in Istanbul and Bonn in 
1998. In every step these gatherings were deliberated by an absolute 
majority that H.M. Mohammed Zaher the former Afghan king was the most 
trusted senior Afghan national elder and the legitimate center of the 
Afghan national politics to facilitate the convening of the Afghan Loya 
Jirga. Since the summer of 1999, the Loya Jirga process has moved on to 
put together a series of Afghan meetings and diplomatic initiative 
under the auspices of the former Afghan Monarch residing in Rome. I 
would like to submit to the committee that since the Soviet pull out 
from Afghanistan there has been the inescapable reality awaiting us 
that peace and stability in Afghanistan can only be achieved in the 
logical order and decorum of the following realizations and practical 
steps:

          1. War, international terrorism and extremism have taken such 
        a grave regional and international dimension that compromises 
        our tenets of Islam, national unity, territorial integrity and 
        national sovereignty.

          2. Afghans themselves can only deliberate peace under the 
        prevailing circumstances in Afghanistan.

          3. Foreign interference and foreign incursions on the Afghan 
        soil must stop. The integrity and sanctity of the Afghan 
        borders must be observed in accordance with International laws. 
        The perpetrators whether governments or organizations at the 
        disposal of government must be put under tight international 
        scrutiny with binding repercussions both economic and 
        political. Here the burden of enforcement is on the shoulders 
        of the United Nations, the United States, European Union and 
        other major powers of the international community.

          4. War must cease immediately. The United Nations Security 
        Council must impose an arms embargo.

          5. The Afghan National Unity must be upheld and enhanced. The 
        incentive is what Madison said during the American struggle for 
        independence ``We either hang together or we will be hanged 
        separately.''

          6. Afghans must exercise their right of self-determination.

          7. Self-determination must be deliberated by all Afghans and 
        legitimized within the process of the Afghan Loya Jirga. That 
        Loya Jirga worthy of the noble cause of Afghan self-
        determination to achieve durable peace and stability must 
        proceed with principles of inclusiveness, transparency, 
        national unity, consultation and national representation. The 
        burden of all this is of course on Afghans whether living 
        inside Afghanistan or abroad. In this critical moment of 
        history, peace and stability in our country demands from all of 
        us that we must act as Afghans and only as Afghans.

    Finally, I would like to use this august forum of the 
representatives of the people of the United States to assure our 
neighbors that the people of Afghanistan are their friends and wish to 
have the best mutually beneficial relations with all the neighboring 
countries and the region. That any government that emerges from the 
will of the Afghan people will not be a threat to the legitimate 
interestc of Pakistan or any other country for that matter. The world 
should expect nothing more or nothing less from a free and stable 
Afghanistan.
    I call upon the international community and particularly upon the 
government of the United States to look at Afghanistan from the 
perspective of Afghanistan, not that of its neighbors, and that the 
time to watch is over and the responsibility to act is long overdue. 
Further delay will dramatically increase the political and economic 
cost of the resolution of the conflict in Afghanistan and the region.

    Senator Brownback. Thank you. Is there a particular region 
of the country where there is famine, or is it over the entire 
nation?
    Mr. Karzai. Well, rain has not been there in the southern 
and western parts of the country. But because of years of war, 
the entire Afghan nation is in despair and destitute and angry.
    Mr. Chairman, I would like to tell a personal story here. 
There is somebody who is a lawyer who is a Pashtun law. Ten 
years ago, he had a house. He had education for his children 
and he had plenty to eat. Five years ago, he came to me for 
help for house rent. Two years ago or 3 years ago, he came to 
me seeking help for the education of his children. And last 
year, he was there seeking help only to feed his family. That 
is how bad Afghanistan is. And this is the condition of a 
highly educated Afghan, a man who fought heroically against the 
Soviets. Now he is in such destitute. The rest of the Afghan 
society is an example that we can take from an educated man.
    Senator Brownback. Dr. Shamley, thank you, very much for 
joining us as well. If you would like to summarize your 
statement so that we can get to questions, and we will take the 
full statement into the record, but we do want to hear your 
points that you have.

  STATEMENT OF DR. ZIEBA SHORISH-SHAMLEY, EXECUTIVE DIRECTOR, 
  WOMEN'S ALLIANCE FOR PEACE AND HUMAN RIGHTS IN AFGHANISTAN, 
                         WASHINGTON, DC

    Dr. Shorish-Shamley. Thank you Mr. Chairman for organizing 
this important hearing and for giving me the opportunity to 
speak to you about the Afghan crisis and possible solutions to 
the crisis.
    However, I am going to skip the area of the cruelty and 
human rights violations by Taliban because I think it has been 
covered well.
    All I want to say is that the Taliban edicts are neither 
part of the Afghan culture nor the religion of Islam. In Islam, 
God grants human rights and they are part of Muslims faith. 
Anyone who considers himself, herself, a Muslim must accept, 
recognize those rights. Islamic rights cannot be changed and 
are applicable to all human beings.
    Islam has granted rights for security of life and property 
and protects honor and dignity of human beings. Islam protects 
the human rights to security and privacy.
    Under the Islamic principles, no one can be imprisoned 
unless his/her guilt has been proven in an open court. To 
arrest and imprison individuals on the basis of suspicion 
without due process is not permissible in Islam.
    Islam has given human beings the right to protest against 
government tyranny. Islam protects individuals from being 
arrested or imprisoned for the crimes of others. Islam grants 
human beings the rights of freedom, of thought, of expression, 
of association and of formation of organization on the 
condition that these rights be used for propagation of truth, 
virtue and justice.
    Islam also protects the human freedom of conscious of 
convictions and of related sentiments. Islam ensures that the 
human religions sentiments are respected and nothing will be 
done that may encroach upon these rights. Islam recognizes the 
rights of humans to the basic necessities of life.
    Islam grants humans equality before law and does not hold 
the rulers above the law. Islams grants humans the right to 
participate in the affairs of their estate. Islam has granted 
all humans, male and female, the right to education and work. 
Islam has laid down some universal fundamental rights for 
humanity as a whole. That ought to be respected and observed by 
all human beings.
    Therefore, the Taliban brand of Islam is not based on the 
teaching of Islam.
    I have a few recommendations, but I will highlight the five 
important things as to what the United States can do.
    The human rights of women and girls in Afghanistan must 
remain a priority for the United Nations and United States. 
Efforts must be focused on rights of women and girls to have 
full access to health, education, work and other social and 
political aspects of their society.
    End the monopoly of participation of the warring factions 
and their foreign supporters in the U.N. peace initiative. 
Diversify contacts within the Afghan populace, particularly 
with Afghan women refugees living in Pakistan, and formally 
include the Afghan Civil Society and non-violent political and 
social centers to become equal participants with the warring 
factions and their foreign backers in the United Nations peace 
initiative.
    The Afghan women must be involved in the peace process and 
must have the right to be effective participants in the 
internal and external affairs of their country and society. 
Having women at the table must be a condition of peace talks. A 
democratic, representative government should be established in 
which all members of the Afghan society regardless of gender, 
age, ethnicity and religious affiliation can be equally 
represented.
    Encourage non-governmental organizations to work in 
Afghanistan to address women's security, access to health, 
education and other basic needs. The U.S. should provide funds 
for the Afghan NGO's for training of the Afghan refugee women 
in the areas such as their empowerment, capacity-building, 
individual skill building, advocacy and development. The United 
States should appoint a Special Envoy to bring to an end the 
human rights violations in Afghanistan.
    The United States and United Nations should negotiate for 
the local populations to have the right to govern themselves. 
They should support the idea of self-determination and a 
democratic system of governance for the people of Afghanistan. 
The United States and United Nations should negotiate for an 
agreement from the warring factions for the redrawing of the 
administrative unit in the government. Representation of the 
administrative unit should enhance the cohesion of the 
different ethnic groups of different territories and provinces 
within Afghanistan.
    Inject moral and human rights measures to judge the 
sincerity of the warring factions and their foreign backers in 
the U.N. peace initiative. The United States and United Nations 
should identify and recognize the democratic elements inside 
Afghanistan who support human rights in general and women's 
rights in particular. These elements should be supported and 
encouraged by the United States and the United Nations, that 
includes in the peace talks.
    The Security Council members such as United States need to 
adopt enforcement measures against the Taliban for opting for 
military resolution to end the conflict and for the gross 
violation of human rights. The warring factions and their 
foreign backers must be held accountable for the war crimes, 
crimes against humanity and genocide and violations of human 
rights.
    The United States and United Nations must force all warring 
factions to agree to cease-fire. The foreign countries involved 
in supporting the action of war must be made to be committed to 
support urgent humanitarian assistance and funds for refugee 
repatriation and reconstruction efforts through international 
and non-governmental organizations.
    The United States and United Nations must urge the Taliban 
and other warring factions to release imprisoned Afghan women 
and men leaders. The U.S. and the U.N. and the international 
community should demand that the Taliban and other warring 
factions must make prisons accessible to international human 
rights organizations.
    The U.N. should investigate atrocity cases inside 
Afghanistan and in the refugee camps in Pakistan. There should 
be a U.N. tribunal to bring to justice those who have violated 
the rights and have committed war crimes, crimes against 
humanity, genocide, and other forms of violence against the 
Afghan women, children and men. The U.N. should empower an 
international tribunal to identify and bring to justice 
Communist-era Afghan and former Soviet war criminals, and those 
responsible for other crimes after the Communist era.
    In addition, the warring factions and their foreign 
supporters must be put on the notice that war can never produce 
dividends in the negotiation stages of bringing peace or when 
peace comes to Afghanistan. Thank you.
    [The prepared statement of Dr. Shorish-Shamley follows:]

          Prepared Statement of Zieba Shorish-Shamley, Ph. D.

    Honorable members of the Committee on Foreign Relations, thank you 
for giving me the opportunity to speak to you about the Afghan crises 
and possible solutions to the crises.
    Mr. Chainnan, Afghanistan that once was the land of heroic peoples 
and hospitality has become the land of terror and torture. There are 
proxy wars, war crimes, crimes against humanity, genocide, and cultural 
genocide. There is persecution and prosecution of people based on 
gender, religious belief, political affiliation, ethnicity language and 
others. There is trafficking of women and girls. There are forced 
prostitution and forced marriages. There are illegal arms and drug 
trafficking and terrorist training. There is child labor and boys as 
young as ten years old are forced to fight in armed conflict.
    Under the Taliban's misogynist rule the Afghan women have become 
voiceless, invisible, nonbeings with no rights to an independent 
existence. They are stripped of all basic human rights that are 
fundamental to human existence.
    The imprisonment of the Afghan women and girls, and prohibition of 
women from work, education and equal access to health care, have led to 
starvation, malnutrition, psychological disorder and other related 
diseases and intentional death among women and girls. Thousands of 
women and their children have died and continue to die as a direct 
result of this brutal system of Gender Apartheid imposed by the 
Taliban.
    In September 1999 the United Nations' Special Rapporteur on 
Violence Against Women accused the Taliban of systematic discrimination 
against women. The Special Rapporteur argued that the Taliban exercise 
official discrimination in all areas affecting women rights, including 
health, education, employment, movement and physical security. The U.N. 
Special Rapporteur points out that while discrimination against women 
exists throughout the world, in Afghanistan it is official policy.
    The Taliban's edicts that deprive millions of Afghan women, men and 
children of their basic human rights are immoral and inhumane. The 
edicts are neither part of the Afghan culture nor the religion of 
Islam. In Islam God grants human rights and they are part of the 
Muslims faith. Anyone who considers himself/herself a Muslim must 
accept, recognize, and enforce these rights. The Islamic rights cannot 
be changed, and are applicable to all the human beings (Qur'an Sura 5 
Verse 44).
    Islam has granted rights for security of life and property and 
protects the honor and dignity of human beings (Sura 49 Verse 11-12). 
Islam protects the human rights to security and privacy (Sura 49 Verse 
12 and Sura 24 Verse 27). Under Islamic principles, no one can be 
imprisoned unless his/her guilt has been proven in an open court. To 
arrest and imprison individuals on the basis of suspicion with out due 
process is not permissible in Islam. Islam has given human beings the 
right to protest against government's tyranny (Sura 4 Verse 148). Islam 
protects individuals from being arrested or imprisoned for the crimes 
of others (Sura 35 Verse 18).
    Islam grants human the rights for freedom of thought, of 
expression, of associations and of formation of organizations, on the 
condition that these rights be used for the propagation of truth, 
virtue and justice and not for evil purposes. Islam also protects the 
human's freedom of conscience, of convictions and of religious 
sentiments (Qur'an Sura 2 Verse 256). Islam ensures that the humans 
religious sentiments are respected and nothing will be done that may 
encroach upon these rights. Islam recognizes the rights of human to the 
basic necessities of life (Sura 51, Verse 19). Islam grants humans 
equality before law and does not hold the rulers above the law. Islam 
also grants humans the right to participate in the affairs of their 
State (Sura 42, Verse 38).
    Islam has granted all human male and female the right to education 
and work (Sura 35 Verse 28 and Sura 4 Verse 32). Islam has laid down 
some universal fundamental rights for humanity as a whole that are to 
be respected and observed by all human beings (Surah 5 Verse 8).
    The Taliban's brand of Islam is not based on the teaching of Islam. 
Islam, which is a religion of peace, compassion and justice, is 
represented to the world as a religion of violence, cruelty and 
injustice. The Muslim scholars in the world have condemned the 
Taliban's ``brand of Islam.''
    The Taliban's strategy is to systematically depopulate Afghanistan 
through gender apartheid, ethnic genocide, and cultural genocide. They 
have massacred thousands of ethnic groups and religious minorities; and 
thousands of others are either missing or they are imprisoned. Hundreds 
of thousands other ethnic people are internally and externally 
displaced. The Taliban have destroyed and continue to destroy Afghan 
cultural heritage.
    Most Afghans believe that after the former Soviets withdrawal from 
Afghanistan, the United Nations and the international community 
predominately, but not exclusively, limited their peace initiatives to 
negotiation between the warring factions and their foreign supporters. 
This strategy has led the United Nations and the international 
community to be unusually silent about the war crimes and human rights 
violations in Afghanistan. This strategy has enticed the warring 
factions and their foreign supporters to use war to attain more 
leverage in the negotiation. Therefore, the unarmed and non-combatant, 
ninety-five percent of the Afghan people, including the Afghan women 
are trapped in a vicious and perpetual cycle of war.
    It is important to note that the reign of war-genocide, human 
indignity, indiscriminate attacks and bombardment on civilians, forced 
embargo to starve groups (all in violation of international conventions 
and international laws) are related to foreign interference, 
particularly that of Pakistan. But the United Nations and the 
International community have not held the interfering nations and the 
warring factions accountable for these crimes. This strategy of peace 
initiative in Afghanistan has shamefully failed.
    Within the peace initiative set by the United Nations, the 
situation of women and girls in Afghanistan not only must be realized 
and abuses remedied, but Afghan women need to be incorporated in the 
peace process from the onset. Restoration of Afghan women's rights must 
be implemented and insured. Afghan women need to be given an equal 
opportunity to participate in the civic and social sectors of their 
country; this involves their participation in the Grand Assembly (Loya 
Jirga), Parliament and in the future broad-based governance body of 
Afghanistan. Peace without restoration of women's rights can never be 
true peace.

   RECOMMENDATIONS TO THE UNITED STATES AND THE UNITED NATIONS FOR A 
          POSSIBLE VIABLE PEACE SOLUTION TO THE AFGHAN CRISIS
    The following recommendations are the result of interviews held 
with various Afghan scholars, experts, journalists, women's rights 
advocates and others.
    (1) The Beijing Platform for Action by the United Nations 
emphasizes the human rights of women. These human rights include 
women's full and equal enjoyment of their rights in access to 
education, health, work and elimination of all forms of discrimination 
against women. Therefore, the human rights of women and girls in 
Afghanistan must remain a priority for the United States, the United 
Nations and the international community. Efforts must be focused on the 
rights of women and girls to have full access to health, education and 
work and other social and political aspects of their society.
    (2) End the monopoly of participation of the warring factions and 
their foreign supporters in the United Nations peace initiative. 
Diversify contacts within the Afghan populace, particularly with Afghan 
women refugees living in Pakistan, and formally include the Afghan 
Civil Society and nonviolent political and social centers to become 
equal participants with the warring factions and their foreign backers 
in the United Nations peace initiative.
    (3) The Afghan women must be involved in the peace process and must 
have the right to be effective participants in the internal and 
external affairs of their country and society. Having women at the 
table must be a condition of peace talks. A democratic, representative 
government should be established, in which all members of the Afghan 
society, regardless of gender, age, ethnicity and religious affiliation 
can be equally represented.
    (4) The United States and the United Nations should encourage non-
governmental organizations to work in Afghanistan and to address 
women's security, access to health education and other basic needs. The 
United States should provide funds for the Afghan NGOs for training of 
the Afghan refugee women in the areas such as empowerment, capacity-
building, individual skill building, advocacy and development. The 
United States should appoint a special envoy to bring an end to the 
human rights violations and end the suffering of the women, men and 
children in Afghanistan.
    (5) The United States and the United Nations should negotiate for 
the local population to have the right to govern themselves. The United 
States and the United Nations should support the idea of self-
determination and a democratic system of governance for the Afghan 
people. The United States and the United Nations should negotiate for 
an agreement from the waning factions for the redrawing of the 
administrative unit in the government. Representation of the 
administrative unit should enhance the cohesion of the different ethnic 
groups of different territories and provinces within Afghanistan.
    (6) Inject moral and human rights measures to judge the sincerity 
of the warring factions and their foreign backers in the United Nations 
Peace initiative. The United States and the United Nations should 
identify and recognize the democratic elements inside Afghanistan who 
support human rights in general and women's rights in particular. These 
elements should be supported and encouraged by the United States and 
the Nations and included in peace talks.
    (7) The Security Council members, such as the United States need to 
adopt enforcement measures against the Taliban for opting for a 
military solution to end the conflict and for the gross violation of 
human rights. The warring factions and their foreign backers must be 
held accountable for war crimes and crimes against humanity at the 
present and must be brought to trial when peace returns. The United 
States and the United Nations must force all warring factions to agree 
to a cease-fire.
    (8) The Foreign countries involved in supporting the factional war 
must be made to be committed to support urgent humanitarian assistance 
and funds for refugee repatriation and reconstruction efforts through 
international and non-governmental organizations.
    (9) The United States and the United Nations must urge the Taliban 
and other warring factions to release imprisoned Afghan women and men 
leaders. The United States, the United Nations and the international 
community should demand that the Taliban and other warring factions 
must make prisons accessible to international human rights 
organizations.
    (10) The United Nations should investigate atrocity cases inside 
Afghanistan and in the refugee camps in Pakistan. There should be a 
United Nations tribunal to bring to justice those who have violated the 
rights and have committed war crimes, crimes against humanity, 
genocide, and other forms of violence against the Afghan women, 
children, and men. The U.N. should empower an international tribunal to 
identify and bring to justice Communist-era Afghan and former Soviet 
war criminals, and those responsible for other crimes after the 
Communist era. In addition, the warring factions and their foreign 
backers must be put on the notice that war can never produce dividends 
in the negotiation stages of bringing peace or when peace comes to 
Afghanistan.

    Senator Brownback. I am late on another meeting that I was 
supposed to attend. One thought I want to put out in front of 
you. I hope we can disengage some other countries from the 
region for the conflict. And I think several of you have noted 
the problem has been over many years. It is just too many 
people stirring the pot. I think we are probably going to have 
to go further than that to help to encourage in the 
stabilization of Afghanistan over a period of time. I think it 
is going to be important on how this develops going forward. 
Now, particularly as we are looking toward a new 
administration, of their engagement of solving this issue.
    We did a wrong policy move when the Soviet Union was trying 
to take over Afghanistan. The United States was very supportive 
of the Afghan freedom fighters. That was the right thing to do. 
Immediately after the Soviets fall out, we are saying, well, 
OK. This is all over. And we go home and then left things there 
to follow a very difficult course that has happened over a 
period of a number of years.
    That I think was a luxury we could enjoy for a period of 
time because from our perspective it was not a clear and 
present danger, an issue for the United States. Now with the 
center of terrorism locating in Afghanistan and the surrounding 
region with the production of heroin within the region with the 
spread of the radicalism much of which has been in some cases 
directed toward the United States, we do not any longer have 
that luxury.
    I think these are good suggestions that you have put 
forward. I am hopeful that we can continue to work in keeping 
this issue present so that we can in the next Congress, this 
Congress as well, it is going to be a little difficult with 
this Congress doing much, but with the next administration and 
pressing this issue toward the American people that this is 
something we are going to need to address and need to resolve. 
And the hearing itself is an attempt to try to raise the 
visibility on this issue so we can press it on forward.
    Thank you, very much for your thoughtfulness, for your 
thoughtful comments. I appreciate those. The record will remain 
open for the requisite number of days so that if you have other 
things that you would like to submit to it, we would be happy 
to receive that. We do have testimony submitted from the Office 
of the Islamic State of Afghanistan in Washington, DC. It will 
be included in the record as well. The hearing is adjourned.
    [The statement referred to follows:]

 Prepared Statement of the Office of the Islamic State of Afghanistan 
                        (ISA) in Washington, DC


                                PROPOSAL
    Two issues regarding U.S. policy toward Afghanistan should be 
addressed. The first of these involves drought relief for Afghanistan 
and the second concerns re-opening the Afghan Embassy here in 
Washington.
    Regarding the drought, ISA applauds the U.S. decision to send much-
needed aid to people of Afghanistan during this period of acute crisis. 
However, ISA is concerned that if all of the intended aid flows through 
Pakistan, very little of that assistance--if any--will reach the 
equally-devastated areas controlled by the ISA. Therefore, we would 
strongly recommend that the U.S. ensure that half of its aid be 
directed through Central Asia, particularly Tajikistan. While we 
realize that the U.S. does not have an embassy in Dushanbe, the World 
Food Program and other non-governmental organizations do operate out of 
there and already have the infrastructure in place for delivery of 
assistance to the Areas controlled by the Islamic State of Afghanistan.
    We would also recommend that the U.S. should make its aid to both 
sides contingent on their observance of a cease-fire. Summer is 
traditionally the season of heaviest fighting in Afghanistan, and 
already the Taliban have launched several unsuccessful attacks on the 
Islamic State positions. The United States should not become involved 
in providing for the humanitarian needs of the population while the 
leadership of the Taliban is allowed to devote all of its resources to 
a war which only increases the suffering of the people.
    We believe the U.S. should increase pressure on the Taliban since 
they continue to flout U.S. policy goals, particularly those regarding 
the expulsion of Usama bin Ladin, reducing opium production, 
negotiating toward a broad-based government, and adhering to 
internationally-accepted norms of human rights. A good method to apply 
this pressure would be to allow the Afghan Embassy to re-open under the 
Government of the Islamic State of Afghanistan. This government 
contains representatives of all of Afghanistan's ethnic groups and has 
proven its viability by withstanding repeated Taliban attacks--
offensives supported by large numbers of non-Afghans in the Taliban's 
ranks--to the point where the ISA now controls approximately one 
quarter of Afghan territory. It is the only alternative to the Taliban 
which currently exists inside Afghanistan.
    Furthermore, the ISA is the government recognized by all other 
foreign countries with the exception of Pakistan, Saudi Arabia, and the 
United Arab Emirates. It is also the government that holds 
Afghanistan's seat in the United Nations. Re-opening the Afghan Embassy 
with ISA representation would send a powerful message to the Taliban 
and their supporters that the United States is serious regarding its 
concerns with the Taliban's behavior in Afghanistan. It also has the 
advantage of costing the United States very little--if anything--to 
implement.

    [Whereupon, at 12:09 p.m. the hearing was adjourned.]

                                   - 

</pre></body></html>
